       STATE MEDICAL BOARDS AND 

            MEDICAL DISCIPLINE 





                  Richard P. Kusserow
                  INSPECTOR   GENERAL




OEI-01-89-00560                         AUGUST   1990
                                EXECUTIVE SUMMARY 


PURPOSE 


The purpose of this inspection is to assess the disciplinary practices of State medical boards. 

It examines the changes taking place that have an important bearing on these practices and the 

impediments to improved board performance. 


BACKGROUND 


This report is a follow-up to a 1986 Office of Inspector General report addressing the 

licensure and disciplinary responsibilities of State medical boards. It concentrates on board 

disciplinary activities because of their relevance to heightened national concerns about 

medical malpractice and the quality of medical care. It is based on a review of pertinent 

literature and documents, an examination of disciplinary action data from the States, a survey 

seeking detailed information about disciplinary actions taken in a random sample of eight 

States, and case studies of board disciplinary operations in California, New York, 

Pennsylvania, and Texas. 


FINDINGS 


Identification Of Cases

Through mandatory reporting laws, immunity protections, and self-reporting laws, State
governments and their medical boards have facilitated the identification of physicians who
may warrant disciplinary action.

In recent years, the annual number of referrals or complaints received by boards has been
increasing, often significantly.

The Medicare-funded Peer Review Organizations (PROS), which regularly review quality of
care cases, still refer few cases to the boards.

Review Of Cases

Case backlogs remain a serious problem for State medical boards. Although some States have
been successful in reducing the backlogs, their successes have tended to be limited in duration
and scope.

Significant staff shortages continue to impede the boards’ disciplinary efforts. Medical license
renewal fees, which can serve as a major funding source for addressing these shortages, have
been increasing. However, much of the revenue that State governments have obtained from
these fees has not been going to the boards.




                                                1
Many other factors continue to constrain the boards’ capacity to review cases expeditiously
and effectively. They include:

      Limitations on the boards’ authority to investigate and prepare cases, conduct hearings,
      and impose disciplinary actions.

      Limitations on authority of Federal or federally funded agencies to share care
      information with the boards.

      Standards of proof calling for “clear and convincing”   evidence.

      Lack of clear-cut standards concerning competent medical care.

      Infrequent information sharing among State boards concerning investigative
      approaches.

Disposition Of Cases

The annual number of actions that medical boards have been reporting to the Federation of
State Medical Boards has been increasing. However, when certain considerations involving
the data and the practice of medicine are taken into account, the increase is of modest
significance.

There are widespread variations in the rate of actions taken by State boards. They reflect
some statistically significant correlations by region and size, but not by fee.

The majority of disciplinary actions that State boards have been taking against physicians are
based on consent agreements.

A number of States are beginning to devote more investigative attention to quality of care
cases. Yet, as in the mid-1980s the great majority of disciplinary actions taken by the State
boards concern the improper use of drugs or alcohol-be it inappropriate prescribing,
unlawful distribution, or self-abuse.

Disciplinary actions of medical boards in other States, information from other State agencies,
and information-gathering initiatives of the boards themselves appear to be the three most
prominent sources for the disciplinary actions taken by the boards. Those actions emerging
from medical malpractice suits and from referrals from physicians, medical societies, PROS,
and Medicare carriers account for a relatively small share of the total.

The majority of the disciplinary actions taken by medical boards involve violations that
occurred in a physician’s office. At the other extreme, few such actions concern violations
that took place in nursing homes.




                                                ii
In cases where there is some basis for concern, but not enough to warrant disciplinary action,
many boards take private, nondisciplinary action that is not reported to the Federation. Some
boards are making increased use of such actions. Others are relying less on them or
discontinuing them altogether.

Overall Board Performance

Notwithstanding the many constraints they still face, medical boards have made significant
progress in improving their disciplinary capacity. Thus far, however, they have not developed
a data base that provides useful indicators of their actual performance.

RECOMMENDATIONS

State Governments

2-	   State governments should assure that all licensure fees collected from physicians and
      other professional groups under the purview of medical boards are used to support board
      operations.

United States Department Of Health And Human Services(HHS)

      The Public Health Service (PHS) should collect, analyze, and disseminate State-by-State
      data on staffing, revenue, expenditure and caseload levels of the State medical boards.

      The PHS should convene a national meeting to focus attention on the importance of the
      boards’ oversight role and to examine how the boards’ resource and other limitations
      should be addressed.

      The PHS, in collaboration with the Health Care Financing Administration (HCFA),
      should determine ways in which HHS could encourage and assist the State boards to
      contract with PROS to conduct reviews of quality of care cases.

      The PHS should provide financial support for the development of performance
      indicators suitable for widespread use by State medical boards.

      The PHS should provide financial support for technical assistance efforts intended to
      improve the boards’ investigative efforts.

      The PHS, through its Agency for Health Care Policy and Research, should provide
      demonstration funding concerning the use of practice standards and guidelines to guide
      investigative efforts in quality of care cases.




                                               ...
                                               111
      The HCFA should propose legislation mandating that the PROS share case information
      with the medical boards when the first sanction notice is sent to a physician.

      The HCFA should amend Medicaid regulations, or, if necessary, propose legislation to
      allow State Medicaid agencies to share with the medical boards case information on
      physicians against whom they have taken adverse action.

      The HCFA should assure that Medicare carriers adhere to their responsibility to refer
      cases of apparent unethical practice or unprofessional conduct to State medical boards.

      The Administration on Aging (AoA) and HCFA should assure that the Long Term Care
      Ombudsman Program and the State survey and certification agencies, respectively,
      provide assistance to State medical boards in identifying instances of improper medical
      care provided to nursing home residents.

Federation Of State Medical Boards (FSMB)

2-    The FSMB should facilitate assessments of the performance of State medical boards.

>	    The FSMB should help State boards improve their effectiveness in reviewing quality of
      care cases.

National Governors’ Association (NGA), Council Of State Governments (CSG), And Nation­
al Conference Of State Legislatures (NCSL)

>	    The NGA, the CSG, and the NCSL should take actions that foster greater State
      government awareness of the crucial roles of State medical boards and of the specific
      measures that can be taken to improve their capability and performance.

COMMENTS

Within the Department, we received comments on the draft report from the PHS, HCFA, AoA,
and the Assistant Secretary for Planning and Evaluation (ASPE). The PHS and AoA agreed
with the recommendations directed to them. However, HCFA and ASPE disagreed with a
number of the recommendations.

Among the national organizations commenting on the report, the FSMB, the American
Association of Retired Persons (AARP), and the Public Citizen Health Research Group
expressed support for the report and the recommendations. The AMA supported two of the
recommendations but disagreed with or opposed most of the remaining ones.

Our recommendation calling for PROS to be mandated to share case information with State
medical boards when the first sanction notice is sent to a physician generated a particularly



                                               iv
.




    strong response. The FSMB and AARP endorsed it, believing it would provide valuable
    information to the boards. The HCFA, AMA, and ASPE opposed it, citing concerns about its
    necessity and appropriateness. We have considered all these responses and continue to believe
    that the recommendation should be carried out.

    We provide further information on the comments and on our response to them at the end of
    the report and in appendix A.




                                                 V
                                       INTRODUCTION

In recent years, as in the mid- 1970s the nation has been experiencing a crisis in medical
malpractice insurance. In both periods the crisis has been triggered by significant increases in
the number of medical malpractice claims and awards, in the dollar awards made by juries,
and in the associated insurance costs for physicians. The result at both times has been to
inhibit the access to medical care, to contribute to the practice of “defensive medicine,” and to
add strain to the doctor-patient relationship.’

The search for solutions to these crises have focused for the most part on the legal system. In
the 1970s and 198Os, nearly all States passed tort reforms that among other things established
caps for pain and suffering awards, imposed limits on attorneys’ fees, and reduced the
applicable statutes of limitations. Yet various inquiries into the phenomenon have made it
clear that to a considerable degree the crises are also rooted in problems associated with poor
medical care, and that over the long term one of the most effective ways to address these
problems would be to assure that effective quality assurance mechanisms are in place.*

Notwithstanding the efforts of the Medicare-funded Peer Review Organizations (PROS),
liability insurers, professional associations, and others, there are three basic quality assurance
mechanisms now in place. Each functions independently of the payment source for the care
being provided. Each addresses specific instances of possibly improper medical practice.
Each tends to be regarded as having a deterrent effect on such practice. They are the medical
malpractice litigation system itself, the review mechanisms carried out by hospital quality
review committees, and the oversight conducted by State medical licensure and discipline
boards.

In this report, we focus on the State medical boards (hereafter referred to as the boards). For
more than a century, dating back to the first modem medical practice act in Texas in 1873,
State governments have charged these boards with the responsibility of licensing and when
necessary disciplining physicians. For the past 25 years, the Federal Government has relied
upon these boards to determine whether a physician is legally authorized to participate in the
Medicare and Medicaid programs and to discipline physicians for any transgressions that do
not directly relate to these programs. The boards have provided these services at no cost to
the Federal Government, or for that matter to State governments, as their revenues derive from
fees imposed on the licensees.

The report is a follow-up to one we issued in 1986.3 That report, which focused on the
licensure and disciplinary responsibilities of the boards, identified a number of vulnerabilities
in both of these spheres. It was widely disseminated and received considerable attytion in
the print and visual media, in governmental circles, and in the medical community.

In this report, in contrast to the earlier one, we focus strictly on the disciplinary
responsibilities of the boards. We do that because these responsibilities are more directly
associated with the malpractice concerns mentioned at the outset, because many of the prior



                                                  1

concerns about the boards’ licensure operations have abated,5 and because a narrower focus
allows for a more in-depth look at the disciplinary sphere than we could undertake in 1986.

Thus, the purpose of our inquiry is to assess the disciplinary practices of State medical
boards.6 Toward that end, we conceptualize the disciplinary sphere as including three major
components: (1) the identification of cases, (2) the review of cases, and (3) the disposition of
cases. For each of these components, we examine the extent and type of changes occurring,
particularly since 1986, and any major impediments to board performance.

In addition, we explore the nature, extent, and implications of the boards’ involvement with
quality assurance activities. Our background investigations indicated that such activities,
which encompass various educational and preventive activities, may be of increasing
significance. Our findings and recommendations concerning the quality assurance activities
will be presented in a brief follow-up report.

Our methodology for the study is based on five major lines of inquiry: (1) a review of
pertinent literature and documents, (2) a review of data from the disciplinary action data bank
of the Federation of State Medical Boards (FSMB), (3) a mail survey of a random sample of
eight States for information on all disciplinary actions taken in those States in 1988, (4) case
studies of board disciplinary operations in the four States having the largest number of
practicing physicians (California, New York, Pennsylvania, and Texas), and (5) telephone
discussions with board officials in other States and in three Canadian provinces involved with
quality assurance activities. (For further elaboration on our methodological approaches, see
appendix A.)




                                                2

                                                             FINDINGS 


IDENTIFICATION                  OF CASES

Through mandatory reporting laws, immunity protections, and self-reporting laws, State
governments and their medical boards havefaciritated the identification of physicians who
may warrant disciplinary action.

State medical boards rely primarily on referrals or complaints to identify cases for
investigation. Thus, if those in good position to identify possible violations of State medical
practice acts fa.iI to do so, the capacity of the boards to provide adequate protection to the
public can be severely compromised.

It was because of this concern that Congress, in 1986, passed Title IV of the Health Care
Quality Improvement Act. That legislation extended legal protection to those providing case-
specific information to State medical boards and mandated that hospitals, other health care
entities, boards, and professional associations send information on adverse actions they have
taken against physicians to a national practitioner data bank. The bank is expected to begin
operation in 1990.


                                                Figure I
                                States with Mandatory    Reporting Laws,
                                   by Reporting Source, 1986 & 1989

           No. of States
        50 r _.._........__._._.,__...____._......__._._..._....._..._..._.___....._...................................................

                                                                                                                        __._....._...
        40

        30                  ._....__....

        20

        10

          r\
          ”
               Hospitals         Insurance           All            Health          St Med           St Prof           Courts
                                Companies       Licensees         Providers        Societies        Societies

                                                       Reporting               Source

                                                       m     1986          -       1989

   Source:     Federation        of State Medical
   Boards,     m,               1988 8 1989-90
   editions.                l   data   not available




                                                                      3

Although many States had immunity protections and mandatory reporting laws prior to the
passage of the Title IV legislation, many more have enacted or strengthened such laws since
then. In regard to mandatory reporting laws, the increased numbers are apparent in all
categories (figure 1). Hospital reporting laws now apply in nearly all the States, with the
requirements typically covering revocations, surrenders, suspensions, and restrictions of
hospital privileges. Also notable is that by 1989,33 States passed a law requiring liability
insurance carriers to report medical malpractice cases to the board. In 22 of these States, the
reporting requirements covered all claims, in 23 all payments, and in 8 payments over a
certain amount, ranging from $5,000 to $100,000.

In regard to immunity protection, a substantial majority of States have applied it to board
members; somewhat smaller majorities have applied it to board staff, to those mandated to
report violations to the board, and to those not mandated to report but who nevertheless report
in good faith (figure 2).



                                              Figure 2 

                               States with Immunity Protection Laws, 

                               by Indivs/Orgs  Covered, 1986 & 1989 

               No. of States




                      Board                     Board                   Orgs Req’d   Good Faith
                     Members                    Staff                   To Report     Reporting



                                            m           1986        -    1989

   Source:     Federation    of State Medical
   Boards,     E&w)gg,      1988 8 1989-90
   editions.




                                                               4

I   .




        Finally, in the late 198Os, a majority of the boards have come to view the liceysure renewal
        process as a means of obtaining “markers” to identify “problem physicians.”       Specifically,
        they have required that all physicians seeking to renew their medical licenses provide
        information on various actions or conditions that would be of concern to the boards.
        These include disciplinary actions imposed by other entities as well as relevant physical
        impairments (figure 3).




                                                                  Figure 3
                                          States        Using Renewal Forms to Identify
                                                          “Problem Physicians,”
                                                    By type          of Information           Required,         1986 & 1989
                     No. of States
                                                                                                       _...................................
                  40 r _._._._._._..._._._._._._._._._._..._..._._..._........._........................._._.




                          0th Bd   Felony                Hsps        Addiction    Prof Sot          Ins           DEA       Hlth Prob
                            Acts Conviction              Acts        Drug/Ale        Act8         Award8          Act8     Phy/Mental



                                                                 m    1986        -       1989

             Source:     Federation        of State Medical
             Boards,     m,               1988 CL1988-90
             editions.                l   data   not available




        In recent years, the annual number of referrals or complaints received by boards has been
        increasing, often significantly.

        There is no national data base on the number of complaints or referrals being received by
        boards. However, the signs of an increasing annual number of such complaints or referrals are
        widespread. They are apparent in the annual reports issued by the boards, in discussions with
        board officials, and in the information obtained from our case study States. In New York, for
        instance, the number of referrals and complaints increased from 1,699 in 1985 to 4,076 in
         1988, and to an estimated 5,000 in 1989.



                                                                            5

instance, the number of referrals and complaints increased from 1,699 in 1985 to 4,076 in
 1988, and to an estimated 5,ooO in 1989.
In general, the mandatory reporting laws and the immunity protections appear to have had the
intended stimulative effect. At the same time, it is clear that there is much variation among
the States. For example, while hospital reporting laws seem to be working relatively smoothly
in some States, they appear to have little effect in others.

Consumer complaints, typically the major source of case identification for the boards, still
tend to predominate. Yet, in most States they seem to be accounting for a decreasing
proportion of complaints and referrals. The increasing shares tend to be accounted for by
referrals from malpractice sources, law enforcement agencies, and hospitals.

The Medicare-funded Peer Review Organizations (PROS), which regularly review quality of
care cases,still refer few casesto the boards.

In our 1986 report, we noted that the PROS tended to be an “especially unproductive source of 

information” for the boards.* Since that time there have been some developments that bear on 

this relationship. Under the third scope of work that became effective for all PROS in April 

 1989, the Health Care Financing Administration (HCFA) called for the PROS to develop 

closer interactions with boards and, in fact, to “consider” sharing confidential case 

information with them when serious quality of care problems are found. In response, some 

PROS have developed or begun to negotiate the development of memoranda of agreement 

with the boards. Furthermore, to identify ways of achieving closer operational relationships, 

the American Association of Retired Persons (AARP), in December 1989, held a workshop 

involving representatives of PROS and medical boards from 10 States.’ 


In general, the relationship between the two entities appears to be reasonably cooperative. In 

a May 1989 survey conducted by the Missouri PRO, about 55 percent of the 38 PROS 

responding reported that the relationship was good or excellent. Yet, about two-thirds of the 

PROS responding to the survey indicated that they had not reported any physicians to the 

boards during the past 12 months. lo The experiences of our case study and sample survey 

States reveal a similarly low level of referral activity. l1 Thus, despite efforts to address the 

matter, the PROS still are relatively unproductive sources of information for the boards. 


REVIEW OF CASES 


Case backlogs remain a serious problem for State medical boards. Although some States
have been successful in reducing the backlogs, their successeshave tended to be limited in
duration and scope.

As in the mid-1980s, many boards still report that they face significant case backlogs.‘*
Through various prioritizing and expediting techniques, they attempt to reduce these backlogs,
but the rising number of referrals and complaints often frustrates their attempts.




                                                 6

The backlogs tend to be most apparent at the point of cases awaiting investigation. However, 

they also exist at various other junctures of the review process, such as those involving case 

reviews by prosecuting attorneys, hearing officers, or board officials themselves. 

In the 1985 to 1987 period, each of our four case study States faced major backlogs in cases 

awaiting investigation and to varying degrees, each has made progress in addressing them. 

Yet, at the beginning of the 1990s in these as in other States, the gains are not necessarily 

enduring ones. For instance, in California, the State with the most licensed physicians, the 

number of cases not yet assigned to an investigator rose substantially during the la;: 6 months 

of 1989, after dropping even more substantially between mid-1988 and mid-1989. 


Moreover, progress that is made in decreasing the number of cases awaiting investigation is 

not necessarily matched at the subsequent junctures of the review process. Thus, the 

expeditious opening of a case does not preclude a long, laborious review process for that itse. 

In fact, cases going through a full evidentiary hearing often take 2 years or more to settle. 

They then are subject to appeals that can take another 2 years or more, with the physician 

often continuing to practice through the appeal process. 


Significant staff shortages continue to impede the boards’ disciplinary efforts. Medical
license renewal fees, which can serve as a major funding sourcefor addressing these
shortages, have been increasing. However, much of the revenue that State governments
have obtained from thesefees has not been going to the boards.

Concerned about large case backlogs, some State governments have allowed boards to hire
additional investigative staff.15 Overall, however, the level and scope of the increases are
modest. For 31 State boards for which comparative data arr available, 17 had no increase at
all between 1986 and 1989 in full-time investigative staff.    During this period the average
number of such staff for the 31 States rose from 4.2 to 4.8, the median from 1 to 2.

With current staffing levels, boards often find each of their investigators handling caseloads of
50-60 or more. They find themselves hard pressed to conduct thorough investigations of
hospital referrals, which tend to involve multiple incidents and patients, or even more so, of
quality of care complaints from an entity which has not already conducted some investigation
of its own. And they find it very difficult to monitor compliance with various probation
orders or licensure restrictions which they have imposed on physicians. In this milieu, as the
number of referrals and complaints continue to climb, the pressure intensifies to find the
quickest possible way to handle each case.

States can improve this situation without cost to taxpayers by increasing medical license
renewal fees. Between 1986 and 1989,38 States (75 percent of the States) did so atll+east
once. During that period the median annual renewal fee increased from $50 to $75.

Yet, as has long been indicated by many board officials, State governments do not necessarily
use all the revenue derived from these fees to help the boards carry out their responsibilities.
In Texas, for instance, the State legislature in Fiscal Years 1988 and 1989 imposed a
temporary $110 increase in renewal fees for physicians and other professional groups to help



                                                7

the State government to balance its budget. The temporary fee raised $110 million across all
the professional groups.

More recently, in Connecticut, the State government increased the annual medical license
renewal fee from $150 to $450, the highest in the country. The increase went into effect in
July 1989 and is expected to increase yearly revenues from about $4 million to about $11.5
million. As of April 1990, the State government had not provided any additional revenue in
support of board operations. In fact, plans were being proposed for possible reductions in
staff.

Many other factors continue to constrain the boards’ capacity to review casesexpeditiously
and effectively. The more significant of them are identified and discussedbelow.

.	    Limitations on the boards’ authority to investigate and prepare cases, conduct hearings,
      and impose disciplinary actions

In recent years, nearly all State legislatures have amended their medical practice acts to
strengthen the authority of their boards. Some of the changes, as in Massachusetts, Florida,
and Maryland, have been major ones, substantially enhancing the oversight authority of the
boards. The great majority, however, have been relatively minor ones, typically involving
some incremental elaboration of the grounds upon which physicians can be disciplined (for
example, a specification of abusive billing practices as a basis for disciplinary action).

 In actuality, most boards still function under some major restrictions to their operational
 authority. Probably the most consequential of these are those that limit a board’s involvement
 to only certain parts of the review process. In California, for instance, the board conducts the
investigation, but the Attorney General’s office is responsible for the preparation of a formal
 accusation. If the board does not enter into a stipulated agreement with the physician but
proceeds with a formal hearing, the case is then assigned to the Office of Administrative
Hearings. The Attorney General’s office then prosecutes the case before the administrative
judge. Clearly, under such a fragmented system, the board alone cannot be held accountable
for the review process. Referring to the responsibilities of the other participating offices, the
executive director of the board has stressed, “These people don’t work for us. We’re subject
to their calendars and their processes and the delays that go along with that.“I*

In New York, the review process has been more fragmented, with a multi-tiered process
involving the Department of Health and the Board of Regents in the Department of Education.
At a recent hearing of the New York State General Assembly, a representative of the State
Department of Health commented as follows about the process:

       “(It’s not structured to yield the best results. It takes too long. It addresses too
      few physicians. It imposes unnecessary costs both on the physicians and on the
       state, and itS totally incomprehensible to the public. The result is inadequate
      protection of the public health.” I9




                                                  8

Other widespread restrictions on board authority relate more directly to the investigative 

process. They concern statutory provisions that preclude or inhibit boards from reviewing 

records of patients not directly involved in an incident being investigated; rigorous and time 

consuming procedures that discourage boards from imposing emergency suspensions, even 

though patients may be in danger; and considerable limitations concerning the conduct of 

undercover work. 


Still other restrictions involve the grounds on which disciplinary actions can be taken, 

notwithstanding the incremental additions that State legislatures have granted in this area. Of 

particular note in this regard are the limitations governing the capacity of boards to take 

disciplinary actions on the basis of such actions taken by a medical board in another State. In 

1989, only nine States could impose a disciplinary action on such a basis without conducting a 

new hearing. More typically, the allowable grounds are only for specified t pes of 

                                                                              28 

disciplinary action taken by another State and a new hearing must be held.

.	    Limitations on authority of Federal or federally funded agencies to share case
      information with the boards

On the relatively infrequent occasions when Federal or federally-funded entities such as
PROS, Medicaid State agencies, and the HHS Office of Inspector General send referrals to
State boards, they typically do not provide detailed information from the case files. This
omission, which is based on guiding statutes and regulations, leaves the boards in the position
of having to conduct their own investigations to obtain information already in the possession
of the referring source.

The problem is particularly serious with respect to the PROS, because they could provide a
large number of high quality cases for board review. Yet PRO officials point to insufficient
statutory and regulatory specificity to support such a sharing of case information. They also
point out that State redisclosure laws may result in disclosure of information which PROS
must keep confidential. “None of us,” said one PRO executive director, “wants to become a
landmark case.”

.     Standards of proof calling for “clear and convincing”   evidence

In accord with guiding statutes and/or existing case law, most boards must b;;e any
disciplinary actions they take on a “clear and convincing” standard of proof.    This is more
rigorous than the “preponderance of evidence” standard that is typically required to justify tort
damages for negligence in civil cases. The more rigorous standard provides greater protection
for physicians, but adds complexity to the investigative process and appears to make it less
likely that a board will persevere on a case through a full evidentiary hearing.

Some State legislatures have amended their statutes to introduce “preponderance of evidence”
as a standard. At least one, Wisconsin, has allowed a court finding of physician negligence in
a medical malpractice case to serve as conclusive evidence before the medical board. But at




                                                 9

this time, there does not appear to be any significant movement across the States to ease the
standard of proof that boards must use.

.     Lack of clear-cut standards concerning competent medical care

The “clear and convincing” rule becomes especially burdensome in quality of care cases, 

because with rare exceptions there are not clear-cut, widely endorsed standards for the boards 

to rely upon in such cases. One executive director of a board, himself a physician, 

commented as follows on the matter: 


       “One of the most difficult problems facing boards and society today is to
      determine how to define an adequate standard of care. You could getJive
      physicians together to look at some aspect of medical care and they would tell
      you ifit was acceptable medical care, but they still couldn’t give you standards
      they used to make that decision.”

In such a situation, unless an act is especially egregious, boards tend to look for another basis
to take action. If they pursue the quality of care angle, they face what could well be a long,
nettlesome process that leads to a hearing where opposing medical experts give conflicting
opinions on the appropriateness of the care provided.

.     Infrequent information sharing among State boards concerning investigative approaches

As caseloads have increased and become more complex, it has become increasingly important
that boards handle their case investigations in a sound, cost-effective manner. How they
prioritize their cases, how they deploy their scarce investigative resources, how they identify
potentially productive leads and other such matters have become increasingly significant
considerations.

Yet, even though 51 boards are regularly coping with such considerations, there tends to be
little interaction among them, particularly at the investigative level. Investigators from
different States rarely are able to take advantage of valuable lessons learned by one another.
This void is especially striking with respect to the quality of care cases, which confront boards
with many new and difficult choices-among          which are those concerning the ways to build
greater clinical expertise into their investigative process.

DISPOSITION      OF CASES

The annual number of actions that medical boards have been reporting to the Federation of
State Medical Boards (FSMB) has been increasing. However, when certain considerations
involving the data and the practice of medicine are taken into account, the increase is of
modest significance.




                                                10 

.




    As in the early to mid-1980s, the annual number of actions which State medical boards report
    to the FSMB disciplinary action data bank have continued to increase. From 1985 to 1987
    (the latest date for which validated data are available)F2 the yearly total of reported actions
    increased by 29 percent, from 2,019 to 2,597. During that period, the more serious
    actions-revocations,     suspensions, and probations- increased at an even higher rate, 37
    percent, from 1,089 to 1,495. (Figure 4 below provides annual totals for each of the four
    categories used by the FSMB.)



                                                          Figure 4
                                               State Board Actions Reported
                                                  to the FSMB, 19851987

                       No. of Actions
            ,200       r ...__..__._...._____...._..._..._.._.___.............._.....__........
                                                                                       ~............................................




                   ”
                           Revocations                Suspensions                       Probations                  Other


                                                 @%985                m          1988       -        1987

       Source:     Federation       of State     Medical
       Boards,     Federation       Bulleth      1985-1987
       editions.




    These data, which derive from all the State boards, reflect an increasingly activist posture on
    their part. Yet, upon analysis, the activism is less imposing than initial impressions would
    suggest.

    First of all, it is important to recognize what the data actually represent. They include initial
    adverse actions, such as revocations, suspensions, probations, and other lesser sanctions.
    They include modifications to these actions that in some way affect the terms of discipline.
    And they include various favorable actions involving a physician who has previously been
    disciplined. For instance, in 1988, in reviewing the monthly disciplinary action reports which



                                                                          11 

the FSMB sends to State medical boards and various other entities, we counted at least 225
actions under the category “license restored or reinstated.”

Further, as is implied in the above discussion, the data include multiple actions involving the
same physician. Thus, if a board put an individual physician on probation, subsequently
modified the probation, and at a still later point terminated it, that physician would account for
three board actions reported to the FSMB. Similarly, if a physician were disciplined in one
State and, on the basis of that action, also disciplined in two other States in which he or she is
licensed, that physician would account for three actions, one action reported by each of the
three States. In our tabulations of the 1988 data, we found that about one-third of all the
license revocations reported to the FSMB during that year were based on actions taken in
other States.

The key question thus becomes: Across the United States, how many physicians are State
medical boards disciplining each year ? The FSMB at present does not provide that
information. It is clear, however, that the number of physicians disciplined by the boards each
year is much less than the number of total actions reported by the FSMB. In our review of the
 1988 data, about 25 percent of all actions clearly were not initial disciplinary actions against a
physician.

A second important consideration that can help put the FSMB data in perspective revolves
around the question of how many physicians should be disciplined each year. How many are
acting or practicing in a manner that would warrant disciplinary action?

There is, of course, no definitive basis for answering such a question. But some recent studies
suggest quite strongly that, even when all appropriate caveats are taken into account, the
universe of potentially actionable events far exceeds the number of disciplinary actions
actually imposed by the boards. One recent study, based on a national survey of 40 physician-
owned insurance companies, found that the overall rate at which these companies disciplined
physicians for “substandard performance” was much higher than that of State medical
boards.23 Another, based on a review of patient records of 30,195 randomly selected patients
in 5 1 New York State hospitals, found that the rate of negligent care provided to these patients
was far greater than the rate of physicians being disciplined by the New York State board.Z

There are widespread variations in the rate of actions taken by State boards. They rejlect
some statistically signijicant correlations by region and size, but not by fee.

During the 1985 to 1987 period, the rate of all board actions taken per 1,000 licensees ran ed
                                                                                           ii
from 2.6 in one State to 32.2 in another. The median rate for the 3-year period was 14.3.

When the State actions are compared by region, size of State (in terms of number of practicing
physicians), and annual renewal fee, substantial variations are, once again, quite apparent
(figure 5). Although overall variations generally are not at a statistically significant level, two
particular comparisons are at such a level. One reveals that boards in southern States were
significantly more likely than those in northern States to have taken some kind of serious



                                                 12 

.



                                                Figure 5
              Serious Disciplinary Actions (Revocations, Suspensions, and Probations)
         and Total Actions Per 1,00 Licensees, by Region, Size of State, & Annual Renewal fee
                                               1985-l 987
         No. of Aotlona______...________._.._______..________..________..                              . .
    20      . . . .




     6


     n
             Northeast               South                    Mldwert                        wert
                                      Actions by Region
                      E2   Serlouo     per 1,000          m       Total per 1.000




                                 No. of Action8                             ,............
                             26r....    __.........._..........




                               ”

                                       X-large                Large           Medium                    Small            X-small
                                                                        Actions by Size
                                                   tZ3 Serious        per 1,000             m       Total per 1,000




                                                                                                    ..
                                                                         _._________.....____..........-
                                                                  No. of Aotlonr




                                                                                                                               .   . .    . .
    Source: Federation of State
    Medical Board’s Exchange,
    19851987 editions; American
    Medical Association’s U.S.
    Medical Licensure Statistics &                                          Hlgh                                Medium                         Low
    Licesure Requirements.                                                                              Actions by Fee
    1984/1985-1986/1987editions:                                                E3          Serlou8    per 1,000      m      Total per 1,000
    and United States Census data.

                                                                                      13
action against physicians in the 1985 to 1987 period. Another indicates that boards in
medium-size2dgStates were significantly more likely to take action, of any kind, than boards in
other States.

There are, of course, many possible factors that might account for the wide variations in rates
of actions taken by State boards. To varying degrees they might be attributable to certain
inaccuracies or discrepancies in the reporting or even to differing levels of physician
incompetence, negligence, or impairment across the States. Yet, as the editor of the New
England Journal of Medicine noted some time ago when considering such variations: “...the
primary expla;%?tion must lie in the relative vigor and effectiveness of the regulatory apparatus
of each State.

The majority of disciplinary actions that State boards have been taking against physicians
are based on consent agreements.

The evidence on this point is compelling. In our survey encompassing disciplinary actions
taken in 1988 in eight randomly selected States, 57 percent of the actions were based on
consent (or as they are often called “stipulated”) agreements. Similarly, in each of our four
case study States, a clear majority of actions have been resolved in this manner in recent years.

Trend data concerning this issue are not usually available in the States, but there are strong
signs that the proportion of cases being resolved through consent agreements has been rising
sharply. Whereas only 21 States had the authority to settle cases in this manner in 1986,41
did by 1989. And board officials and reports suggest that the boards have been quite active in
taking advantage of this authority. In Connecticut, for instance, the proportion of cases
decided through consent agreements rose from 69 percent in 1986 to 72 percent in 1987 to 89
percent in 1988. In Texas, the rise during the same period was from 76 percent to 77 percent
to 89 percent. In 1989, the increase continued, reaching 95 percent.

Given the increasing numbers of referrals and complaints, the staff shortages, and the
cumbersome review processes, it is understandable why boards find a consent agreement so
attractive compared with the alternative of a full evidentiary hearing. As one board official
noted, “It allows appropriate action to be taken without taking up a lot of board time.” Yet, as
the proportion of cases so settled exceeds 50 percent and, indeed, nears 100 percent in some
places, one wonders if the “appropriate” board action is always being taken-if the pressure to
settle might not be leading some boards in some cases to act more leniently than the violation
would warrant.

One also wonders about the extent to which such settlements, when they represent the initial
disciplinary action against a physician, will impede or complicate actions against that same
physician by other States in which he or she is licensed. Without a prior action involving a
full evidentiary hearing, another jurisdiction may face the prospect of conducting additional
investigative work of its own.




                                               14 

A number of States are beginning to devote more investigative attention to quality of care
cases. Yet, as in the mid-1980s, the great majority of disciplinary actions taken by the State
boards concern the improper use of drugs or alcohol- be it inappropriate prescribing, un­
lawful distribution, or self-abuse.

In response to increasing public concerns about the quality of medical care, a number of
boards are increasingly inclined to conduct case reviews that bear in some way on the
adequacy of the medical care provided. The Texas board is a notable example. In 1986, with
the board having a substantial backlog of quality of care cases, the State legislature authorized
additional funding to address these cases. With the additional money, they added part-time
medical consultants and hired an attorney and four clinical investigators trained as nurses or
physician assistants.

As noted previously, quality of care cases tend to be among the more complex ones for boards
to investigate and thus can take a substantial amount of time before they result in some kind of
disciplinary action. Thus, in the coming years such actions may begin to account for a
significant proportion of all disciplinary actions, as those now in the pipeline reach the point
of disposition. Through 1988, however, they still account for a small share of all actions.

In our sample of eight States, actions taken on the basis of “incompetence” accounted for 11.5
percent of the cases in 1988. In our review of the monthly FSMB reports sent to the States in
1988, cases coded in the category titled “incompetency, malpractice, negligence” accounted
for about 5 percent. In both cases, the proportions surely under-represent the extent to which
actions respond to quality of care problems, because when it is possible for a board to take
action on the basis of another more provable grounds it will often do so. How much these
cases are underrepresented remains unclear.

It is clear, however, that a majority of actions are based one way or another on cases involving
the improper use of drugs or alcohol. In our sample, 57 percent of the actions involved
“misprescribing, ” “impairment,” or “narcotics violations.” In our review of the FSMB’s 1988
reports, 66 percent were in the “alcoholism” or “narcotics violations” categories. The latter
was by far the larger component and involves such violations as the over prescribing of
pain-killers, the failure to keep proper records on drugs prescribed or dispensed, and the
personal abuse of drugs.

Disciplinary actions of medical boards in other States, information from other State agen­
cies, and information- gatheting initiatives of the boards themselvesappear to be the three
most prominent sourcesfor the disciplinary actions taken by the boards. Those actions
emerging from medical malpractice suits and from referrals from physicians, medical
societies,PROS, and Medicare carriers account for a relatively small share of the total.

Because of definitional discrepancies and incomplete information, it is not possible to provide
a definitive or precise delineation of how board disciplinary actions are first identified. Yet,
on the basis of our sample survey, discussions with State board officials, and review of board
annual reports, it appears that the three above-noted sources are the leading ones. In our



                                                15 

sample survey, the account for about 41 percent of the disciplinary actions taken by the eight
                   28y
States (figure 6).



                                              Figure 6
                                 Disciplinary Actions, by Referral
                                   Source, Sample States, 1988

                                           Other State
                                              Board

                                 Hospi tal .ZTZ?                                 Board
                                    9%                                       , Initiated

                         Health Care 

                              Prof 

                               9% 


                          Don’t Know                     11KXA\\V                 Other
                               9%



                                                            w
                                                                                    11%

                                   Other
                                  Agency                                     Physician
                                    8%                                          5%
                                            Public                   Court
                                                            FSMB      8%
                                              8%            Report
                                                              6%
      Source:     Office  of
      Inspector     General.



7
 With greater certainty, we can report relatively few disciplinary actions are taken as a result of
information generated from medical malpractic%;ases and by referrals from physicians,
medical societies, PROS, and Medicare carriers.          Given the degree of public concern about
medical malpractice, and given the fact that 33 States have mandatory malpractice reporting
laws of one kind or another, the relative insignificance of those cases to the boards may be
surprising. Yet, board officials report that such cases seldom prove to be viable for their
purposes. This is most especially true of cases which have not involved any payment. But it
is also true, albeit to a lesser extent, for malpractice cases which have resulted in settlements
or jury awards. Even in such cases, the complexities associated with developing “clear and
convincing” evidence and the lack of clear-cut practice standards tend to inhibit board action.




                                                     16 

In attempting to compare the sources of disciplinary action with the sources of complaints or
referrals, we find the available information to be even more fragmented and sparse. Yet, what
is available indicates that referrals from liability insurers and/or courts and from consumers
account for a far higher proportion of complaints than of disciplinary actions. On the other
hand, referrals from State agencies, out-of-State medical boards, and hospitals seem to
account for a much larger proportion of disciplinary actions taken than do other referral
sources.30

The majority of the disciplinary actions taken by medical boards involve violations that oc­
curred in a physician’s office. At the other extreme, few such actions concern violations
that took place in nursing homes.

State boards seldom provide or even assemble information on the setting of a violation that
led to a board disciplinary action. In our sample survey, the boards could not identify the
setting for 52 percent of the disciplinary actions they took in 1988.

Yet, for the remaining actions, those for which they could identify the setting, the boards
indicated that 68 percent clearly involved violations that took place in the physician’s office.
Such violations, which are typically outside the purview of hospital quality review committees
or PROS, involved a wide variety of unlawful actions concerning improper conduct as well as
improper medical care.

At the other extreme, the boards in our sample States did not identify a single disciplinary
action they took in 1988 that was attributable in any way to care provided in a nursing home.
In view of the numerous complaints that the Long Term Care Ombudsman Program,
administered by the Administration on Aging, receives about medical care provided in nursing
homes, the lack of board actioqsuggests insufficient board oversight of the care provided to
the residents of;iese facilities.  A recent study of nursing home care in California reached a
similar finding.

In caseswhere there is some basisfor concern, but not enough to warrant disciplinary ac­
tion, many boards take private, nondisciplinary action that is not reported to the Federa­
tion. Some boards are making increased use of such actions. Others are relying less on
them or discontinuing them altogether.

Such actions are particularly common in relation to impaired physicians, who are increasingly
treated in a rehabilitative rather than punitive manner. In Connecticut, for instance, between
1986 and 1988,42 of the 88 “disciplinary” actions that the board imposed were confidential,
unreported ones involving physicians who agreed to participate in an impaired physicians’
program.

In other situations where a physician’s actions involve a “borderline” violation or there is
insufficient evidence to prepare a case, many boards will respond by issuing a private letter of
concern, reprimand, or warning of some kind. They regard such a response as a useful way of
alerting a physician to the danger of certain practices and urging appropriate corrective actions.



                                                17 

    The California board has relied particularly heavily on this approach. For instance, in 1988,
    when it reported 78 disciplinary actions to the FSMB, it also enrolled 78 physicians in a
    treatment program for impaired physicians, sent about 100 warning letters to physicians, and
    conducted medical education conferences with another 257 physicians. At these conferences,
    the physicians and board officials discuss the practices that presented cause for concern and
    the types of corrective actions that might be taken. Any follow-up actions on the physician’s
    part are voluntary, but if he/she is again brought to the board’s attention, board officials report
    they are likely to respond in a less understanding manner.
i
    At the other extreme, some States, such as Texas, have discontinued the use of such private
    approaches. Typically, the basis for terminating or phasing down such approaches rests in
    public suspicions of boards being too understanding or lenient toward physicians.

    OVERALL      BOARD      PERFORMANCE

    Notwithstanding the many constraints they still face, medical boards have made significant
    progress in improving their disciplinary capacity. Thus far, however, they have not
    developeda data base that provides useful indicators of their actual performance.

    Even with the numerous limitations noted in this report, State medical boards are much better
    equipped to carry out their disciplinary responsibilities than they were 25, 10, or even 5 years
    ago. Twenty-five years ago, as the Medicare and Medicaid programs were beginning, boards
    focused almost entirely on their licensure responsibilities and on the development and
    administration of their own licensure exams. Ten years ago, in the aftermath of the medical
    malpractice crisis of the mid-1970s, they began devoting more attention to disciplinary
    activities, but had little wherewithal to provide more than minimal oversight. Five years ago,
    in response to intensified public scrutiny and criticism, boards, as documented in our previous
    report, gained considerable authority and began disciplining physicians more frequently, but
    still were severely underfunded in relation to the responsibilities before them.

    During the past 5 years the improvement has continued. Nearly all boards now have the
    authority to revoke and suspend physicians’ licenses, to issue emergency suspensions, to
    impose probations, and to invoke other lesser forms of discipline, such as reprimands, letters
    of concern, or fines.33 Because of supportive changes by their State legislatures, most are
    experiencing significant increases in the number of referrals and complaints sent to them and a
    broadening of the grounds available to them for imposing disciplinary action. Not
    insignificantly, in terms of their accountability to the public, most have?Jso experienced an
    increase in the number of “public” (i.e., nonphysician) board members.

    Yet, if one were to ask how a particular board or boards in general were actually performing at
    the current time, one would be hard pressed to offer more than an impressionistic answer.
    This is because boards typically do not prepare and issue data that allow for meaningful
    assessments of performance. Most boards issue annual reports, incorporating some statistical
    information, but the information provided tends to be fragmented and minimal. Further, it is




                                                     18 

seldom expressed in terms of ratios or percentages that facilitate comparisons of a board’s 

own performance over time and/or of one board’s performance with another. 


Thus, even though most board officials decry assessments of their performance based strictly 

on the number of disciplinary actions they take, the reality is that, with rare exceptions, there 

is little else available upon which to base meaningful assessments. Moreover, as we’ve noted, 

even the disciplinary action data as currently provided is subject to some important 

qualifications that limit their usefulness. It is rare that in annual reports or even internal 

agency reports one can obtain data that allow for useful comparisons on matters such as case 

processing time or case dispositions by source and type of case. Thus, the public and its 

representatives are deprived of potentially important indicators of board performance and 

boards themselves are deprived of information that can help them improve their overall 

performance. 


In assessing the performance of boards in recent years, we can point out, with confidence, that 

they and their State legislatures have made important progress in putting in place many of the 

elements that enable them to perform more effectively. Yet, in view of the minimal 

quantitative data available concerning board processes and outputs, neither we nor anyone else 

can assert with equal confidence that the boards’ actual performance has been improving. 


At a time when board performance is more important than ever, when the growth of high 

technology medicine enhances the ability of physicians to do harm as well as good, when 

expectations of boards are far greater than in the past, this distinction between enabling 

elements and actual performance is more than of academic interest. Indeed, in the 1990s as 

pressures intensify for some kind of national initiatives concerning the nation’s health care 

system, the future role and effectiveness of boards could depend in large measure on their 

capacity to develop meaningful indicators of their performance, to collect data on a regular 

basis concerning these indicators, and not least of all, to draw upon the data as guides to 

improved performance. It is a major challenge, and one that is vital to address. 





                                                 19 

                                  RECOMMENDATIONS

As one of the nation’s basic quality assurance mechanisms, State medical boards can play an
important role in mitigating and even averting medical malpractice crises. In so doing, they
can be instrumental in facilitating access to medical care, improving the quality of care, and
reducing the excessive costs associated with high malpractice insurance rates and the practice
of defensive medicine.

The boards’ role in this regard is especially crucial in regard to medical care provided in a
physician’s office and by physicians who are not on hospital staffs or certified by specialty
organizations. In such settings and for such physicians, the boards serve by and large alone in
protecting the public from improper medical care.

The primary responsibility for assuring that the boards carry out this role effectively rests, of
course, with State governments. We strongly encourage State legislatures, State governors
and agency heads, and State boards themselves to address the limitations indicated in this
report. At the same time, we recognize that in part their success in doing so can depend on the
supportive actions of the Federal Government, of the Federation of State Medical Boards, and
of other entities representing State government.

STATE GOVERNMENTS

>	    State governments should assure that all licensure fees collected from physicians and
      other professional groups under the purview of medical boards are used to support
      board operations.

DEPARTMENT        OF HEALTH      AND HUMAN SERVICES            (HHS)

In line with the Federalism Executive Order issued by President Reagan on October 26, 1987
and reaffirmed by President Bush on February 16, 199035, the Department’s actions
concerning State boards, to the maximum extent possible, should be supportive of State
government roles.

That has been the thrust of the actions which the Department has taken thus far. In particular,
the Public Health Service (PHS) in recent years has provided some financial support to the
FSMB to help develop its computerized data bank and to develop useful reference materials
for the State boards. In coming months and years, PHS’ involvement with the boards will
become more regularized and operational through its oversight of the national practitioner
data bank. The data bank, once established, will serve as an additional resource which State
boards can draw upon in identifying and reviewing cases.

Our recommendations concerning the Department are directed to PHS, HCFA, and the
Administration on Aging (AoA). The ones directed to PHS call for it to take a more active and
supportive role to the boards and identify ways in which it might provide such support. The



                                               20 

ones directed to HCFA identify actions it can take to facilitate the flow of useful information
to the boards. The one to AoA calls for it to increase the relevance of the Long Term Care
Ombudsman Program to the State boards.

The Public Health Service

In our prior report, we urged the States to increase license renewal fees of practicing
physicians in order “to support expansion and improvement of the enforcement activities of
State medical boards.“36 In its 1987 report, the HHS Task Force on Medical Liability and
Malpractice urged the States to “assess the adequacy of funding available to their licensing
boards” and “develop plans to assure that !h#r medical boards have sufficient funds to
conduct an effective disciplinary program.

As we have noted in this report, there has been little progress in this direction. Boards still are
well short of having “sufficient funds” to carry out their disciplinary activities effectively, and
although renewal fees have increased in many States, the additional revenue is not necessarily
flowing to the boards. Without a concerted effort to address this funding/staffing shortfall, all
other reform efforts are likely to have minimal effect. Moreover, as caseloads rise, some
dysfunctional effects, such as an excessive reliance on consent agreements, could intensify.

Thus, the matter, we think, is of sufficiently national interest for the PHS, as the HHS
component most closely linked with the boards, to exert leadership in determining how the
Federal Government might address the shortfall as well as other limitations confronting the
boards. In that regard, we urge the PHS to consider the future Federal relationship with the
boards more in terms of a partnership addressing joint concerns than one involving separate
spheres of responsibility addressing separate concerns. Such a relationship clearly fits within
the nation’s tradition of federalism and the framework of the President’s Executive Order.

>	    The PHS should collect, analyze, and disseminate State-by-State data on stafing,
      revenue, expenditure and caseload levels of the State medical boards.

An information gathering and distribution effort of this kind would be of considerable value in
clarifying the extent and nature of the resource shortfall of the medical boards. If presented in
terms of ratios and percentages as well as absolute numbers, it would also facilitate useful
comparisons among boards in different States.

>	    The PHS should convene a national meeting to focus attention on the importance of the
      boards’ oversight role and to examine how the boards’ resource and other limitations
      should be addressed.

Such a meeting, which should involve widespread participation of officials representing State
medical boards and other parts of State governments, should focus on the kind of actions that
should be taken by State governments and the Federal Government to improve both the
capacity and performance of the boards. If information such as that called for in the prior




                                                21 

recommendation were distributed prior to the meeting, the deliberations of the attendees
would be enhanced.

>	     The PHS in collaboration with HCFA should determine ways in which HHS could
       encourage and assist the State boards to contract with PROS to conduct reviews of
       quality of care cases.

The PROS typically have much more health care expertise available to them. Such expertise
could be of great assistance to the boards in preparing cases involving quality of care
deficiencies. Moreover, the development of such an association could help foster a more
extensive sharing of information between the two entities.

2=-	   The PHS should provide financial support for the development of performance
       indicators suitable for widespread use by State medical boards.

By doing so, PHS, with a relatively small inves\yent, could serve as a catalyst in a vital area
in which there appears to be increasing interest.   The PHS effort should involve widespread
participation by board officials and others knowledgeable and/or interested in this field. It
should seek the development of relatively few but specific indicators which are expressed in
terms of ratios or percentages and which have substantial credibility and support among board
officials. Such indicators could be of considerable significance not only to State medical
boards but to many other State boards, such as those concerned with dentistry and optometry.

To the maximum extent possible, PHS should foster the development of indicators that
facilitate comparisons, both of a particular board’s performance over time and between boards
in different States. Even though each State board is in some way different and functions in a
unique State milieu, inter-State comparisons can serve as useful guides and stimuli to
improved performance. For example, if in using a case processing time measure, one State is
found to have a much slower processing time than most other States, the major explanation
may well be attributable to a highly fragmented review process that divides accountability
among various parties. An expanded awareness of this fragmented process and of the
implications it has for processing time could enhance the prospects for constructive reform in
that State.

>	     The PHS should provide financial support for technical assistance efforts intended to
       improve the boards’ investigative efforts.

The funding should be directed to an organization or to organizations that can assemble some
expertise on the “do’s and don’t’s” of investigations and that can make that expertise available
to boards, in their own settings, for limited periods of times. The effort should attempt as
much as possible to build on prior experiences and focus on key details involving how cases
are prioritized, investigations conducted, and evidence assembled. It should give particular
attention to the quality of care cases, which tend to be among the more complex ones facing
boards and which are becoming increasingly prominent in some boards’ caseloads.



                                               22 

>	    The PHS, through its Agency for Health Care Policy and Research, should provide
      demonstration funding concerning the use of practice standards and guidelines to guide
      investigative efforts in quality of care cases.

In recent years, largely in response to the medical malpractice crisis, increasing attention has
been devoted to producing practice related information that can minimize or eliminate
avoidable medical injuries. The Agency’s medical treatment effectiveness research efforts are
expected to generate data that can be useful in this regard 7; well as in promoting more
effective treatments and better patient outcomes generally. In the near term, guidelines or
standards which insurers and professional associatiot$ have developed for certain medical
specialties have even more operational significance.      Also, as a preventive measure some
boards themselves have been distributing some practice information, for instance on
procedures for treating chronic back pain, to licensed physicians.

Yet, there has been little effort to date to integrate the use of practice standards and guidelines
into the investigative and case preparation process. Given the link between clear practice
standards and boards’ capacity to review quality of care cases effectively, this would seem to
be a fertile area for PHS to provide demonstration support to some boards. It could provide
useful feedback on the viability of certain standards and guidelines and at the same time
enhance the boards’ effectiveness in handling these cases.

The Health Care Financing Administration

>	    The HCFA should propose legislation mandating that the PROS share case information
      with the medical boards when the first sanction notice is sent to a physician.

In our 1986 report, we called for HCFA to amend the PRO regulations to “require more
extensive and timely reporting to State medical boa.rds.‘A1 Since that time, in addition to
introducing the PRO scope of work changes calling for closer interaction with the boards4*
HCFA has proposed a regulatory change that, if enacted, would provide a somewhat stronger
base for PRO sharing of information with the boa.rds.43 Yet, given the scope and intensity of
PRO concerns about how much and how soon they can share information with the boards,
neither of the;? HCFA initiatives, according to PRO officials themselves, are likely to have
much impact.

Thus, we strongly urge a statutory mandate as indicated above. Such a mandate would
provide the PROS with the unambiguous protection they feel they need to share detailed case
information with the medical boards.45 Moreover, by calling for such information to be
shared at a point when a physician is first provided with a sanction notice rather than when a
sanction recommendation is sent to the Office of Inspector General, it would provide medical
boards with many more PRO referrals on cases involving serious quality of care problems.




                                                 23 

>	    The HCFA should amend Medicaid regulations, or, if necessary, propose legislation to
      allow State Medicaid agencies to share with the medical boards case information on
      physicians against whom they have taken adverse action.

Current Medicaid regulations concerning confidentiality provisions require that case
information shared with a board must pa”sf”’ “purposes directly connected with the
administration of the (Medicaid) plan.      This requirement has precluded Medicaid agencies
from sharing their investigative records with the boards, even y7instances where they have
terminated a provider’s participation in the Medicaid program.     This situation provides an
unnecessary impediment to board action and should be corrected by HCFA.

z-	   The HCFA should assure that Medicare carriers adhere to their responsibility to refer
      cases of apparent unethical practice or unprofessional conduct to State medical boards.

The Medicare Carrier Manual requires that such cases be reported to the boards. Yet, as we
have noted, such cases account for few of the disciplinary actions taken by the boards. The
HCFA, as part of its oversight of carrier activities, should assure that the carriers are being
sufficiently diligent in referring cases to the boards. Such cases, as the manual points out, can
involve overutilization or misutilizaton of services, overcharging, a harmful pattern of
treatment, and a violation of ethics.

The Administration on Aging and the Health Care Financing Administration

2-	   The Administration on Aging and HCFA should assure that the Long Term Care
      Ombudsman Program and State survey and certification agencies, respectively, provide
      assistance to State medical boards in identifying instances of improper medical care
      provided to nursing home residents.

The Long Term Care Ombudsman Program, funded under the Older Americans Act, serves as 

an important vehicle in the States for addressing the conditions of nursing home residents and 

complaints by or on behalf of these residents. Similarly, the State survey and certification 

agency has responsibility for assuring the adequacy of nursing home care and for addressing 

complaints. 


Because of concerns raised about the adequacy of medical care offered to nursing home 

residents in California and other States, because of the numerous complaints concerning 

medical care in nursing homes received by the Ombudsman program, because of a recent 

Office of Inspector General study indicating the inadequacy of State and Federal efforts to 

prevent abuse of nursing home residents49, and because boards have not had much 

involvement with such cases, the AoA and HCFA should determine if the training provided to 

the Ombudsman staff and volunteers and State survey and certification staff could provide 

more and better information about the medical boards. Further, AoA should determine if there 

are ways in which the program could help nursing home residents and their families become 





                                                24 

more informed about the medical boards as a forum for addressing complaints about improper
medical care.

FEDERATION       OF STATE MEDICAL          BOARDS      (FSMB)

For many decades, the FSMB has served as a valuable resource for State medical boards,
mainly in relation to licensure matters. During the past decade, the FSMB, as the boards
themselves, has become increasingly focused on disciplinary matters. This focus has resulted
in the development and operation of its computerized disciplinary action data bank and,
among other things, in the issuance of extremely useful reference documents, such as
Exchange, Guide to the Essentials of a Modern Medical Practice Act, A Model for the
Preparation of a Guidebook on Medical Discipline, and, most recently, Elements of a Modern
State Medical Board: A Proposal. The later document, based on considerable inquiry, is a
particularly valuable reference point that States can draw upon in determining how they might
increase the capability of boards.

For the FSMB, we urge that in the 199Os, at a time when most State boards are likely to face
severe challenges and stresses, it continue and, indeed, intensify its efforts to assist boards to
carry out their disciplinary responsibilities more effectively. In this context, we urge that the
FSMB give particular attention to mechanisms for assessing board performance and to
approaches boards might take to enhance their effectiveness in addressing cases involving the
quality of medical care.

>     The FSMB should facilitate assessments of the performance of State medical boards.

Such an effort would be a logical and timely follow-up to the Elements document noted
above. Indeed, we urge the FSMB to undertake a similar effort resulting in a companion
document which might be called “Assessing the Performance of a Modern State Medical
Board.” Such a document might encompass the licensure as well as the disciplinary
responsibilities of the boards. In any case, it should identify some very precise quantitative
measures that could be used to facilitate assessments of board performance.

In addition, we urge the FSMB to determine what other actions States can take to facilitate an
assessment of boards’ performance. One such action that would be especially helpful would
be a detailed specification of the disciplinary data that should be included in the annual reports
of the State boards. The Elements offers a general review of information that might be
included but does not address the specific ways in which data might be presented.

Another action would be for the FSMB to issue its annual summary of State board actions in a
manner that at a national level clearly distinguishes the number of disciplinary actions taken
and the number of physicians disciplined. Presenting the data in this fashion, at least at an
aggregate national level, would foster a more precise and meaningful understanding of one
very important aspect of board performance: the imposition of disciplinary actions.




                                                25 

>	    The FSMB should help State boards improve their effectiveness in reviewing quality of
      care cases.

In large measure, the effectiveness of the boards in the 1990s is likely to rest on how and how
well they address such cases. In this regard, we urge the FSMB, to the maximum extent
possible, to serve as a helpful reference point to the boards. To a considerable degree, it can
achieve this end by serving as a vehicle for the identification and distribution of “best
practice” information. Such information could concern particular techniques found to be
effective in investigating quality of care cases. It might also cover educational or other
“nondisciplinary” interventions which some boards have found to be useful in responding to
physicians whose actions raise concern but may not be serious enough to warrant disciplinary
action.

NATIONAL GOVERNORS’    ASSOCIATION                (NGA), COUNCIL OF STATE
GOVERNMENTS   (CSG), AND NATIONAL                 CONFERENCE    OF STATE
LEGISLATURES (NCSL)

Each of these organizations is a national one that addresses a wide variety of issues
concerning State government. Because of their broad purview and their credibility with State
governments, we urge each of them to take initiatives aimed at enhancing the capability and
performance of State medical boards.

>	    The NGA, the CSG, and the NCSL should take actions that foster greater State
      government awareness of the crucial roles of State medical boards and of the specific
      measures that can be taken to improve their capability and performance.

The specific kinds of actions that should be taken are most appropriately determined by those
organizations themselves. What is most important from our perspective is that they encourage
State government efforts to strengthen the boards. Inevitably, this would call for some
attention to the staffing and funding limitations but also to the many other factors identified in
this report that impede the effectiveness of the boards.

In regard to the latter, the National Clearinghouse on Licensure, Enforcement and Regulation
(CLEAR), which is run under the auspices of the CSG, is in a particularly good position to
provide assistance. Formed in 1980, CLEAR functions as an informational resource for State
officials involved with occupational licensure and regulation issues. Through its conferences
and publications, it can serve as a particularly important vehicle for identifying ways in which
State medical and other boards can become increasingly effective entities in the 1990s.




                                                26 

                      COMMENTS ON THE DRAFT REPORT

Within the Department of Health and Human Services (HHS), we received comments on the
draft report from the Public Health Service (PHS), the Health Care Financing Administration
(HCFA), the Administration on Aging (AoA), and the Assistant Secretary for Planning and
Evaluation (ASPE). In addition, we received comments from the Federation of State Medical
Boards (FSMB), the American Association of Retired Persons (AARP), the Public Citizen
Health Research Group, and the American Medical Association (AMA).

In appendix A, we present the detailed comments offered by these HI-IS components and
national organizations and our response to their comments. As indicated there, the responses
to our recommendations were mixed. The PHS concurred with each of the six
recommendations we directed to it, and the AoA agreed with the one directed to it. On the
other hand, HCFA and ASPE disagreed with a number of the recommendations.

Among the national organizations commenting on the report, FSMB and AARP concurred
with all of our recommendations, albeit in some instances with qualifications. The Public
Citizen Health Research Group indicated general support for the report, but expressed concern
about how we assessed the benefits of good medical quality assurance. Finally, the AMA
indicated support for our recommendations calling for States to assure that licensure fees are
used to support board operations and for PHS to convene a national meeting on State medical
boards. However, the AMA disagreed with or expressed reservations about most of our
remaining recommendations.

Among our recommendations, one generated a particularly strong response by the
commenters. This is the recommendation urging HCFA to propose legislation mandating that
the PROS share case information with the medical boards when the first sanction notice is sent
to a physician.

The FSMB supported the recommendation, noting that if enacted it would provide the State
medical boards with useful information. Such information, it added, could be used to “initiate
appropriate action if the remedial efforts of the PRO are ineffective, or if the physician
attempts to avoid review by relinquishing his participation in Medicare.” The AARP had a
similarly positive response, but urged that the mandated data sharing be extended even further
“to include material produced by PROS’ quality review, beneficiary complaint, and utilization
review processes.” Finally, during a June 8, 1990, Congressional hearing focusing on our
report, Congressman Ron Wyden, Chairman of the Subcommittee on Regulation, Business
Opportunities and Energy of the Committee on Small Business of the U.S. House of
Representatives, also supported the recommendation. He indicated that he would be
introducing legislation to carry it out.

However, three of the commenters clearly opposed the recommendation. The HCFA, to
whom the recommendation was directed, believes that current legislation and regulations
allow for data exchange when it is appropriate. The AMA indicated that the sharing of case




                                              27 

information at a time when the first PRO sanction notice was sent to a physician would be
premature - that it would violate the due process rights of the physicians involved. Finally,
ASPE noted the same kind of concerns and added that the justification was lacking in
“evidentiary support.”

We regret this opposition. We continue to think that the proposed legislation is very
important. We base our position on the following considerations.

First, it is quite clear that if the PROS are to refer more than a very small number of cases to
the State medical boards, a Federal mandate is, indeed, necessary. This was strongly indicated
by a number of PRO representatives at a December 1989 workshop on PRO-State medical
board relationships that was convened by the American Association of Retired Persons. Those
representatives expressed considerable concern about the legal liabilities they faced under
existing law by sending case information to the boards.

There is considerable documentation that reveals that the PROS are, in fact, referring few
cases to the boards. As we cited in our report, a May 1989 survey conducted by the Missouri
PRO indicated that of 38 responding PROS, two-thirds had not reported any physicians to a
State medical board during the past 12 months. Further, HCFA’s own data on PRO quality
interventions reveal that from October 1, 1988, to December 31, 1989, only seven of the
PROS referred one or more cases to a board. Still further, in our own sample survey of 8
States, we found that only 1 of 199 State board disciplinary actions taken in 1988 originated
from a PRO referral.

A second consideration that underlies our support for the proposed legislation is that a PRO’s
decision to send a sanction notice to a physician is a very serious and infrequent one. It
represents a finding that a physician has committed a “substantial violation” of his or her
Medicare obligations “in a substantial number of cases” or a “gross and flagrant” violation in
a single case. While many of these cases result in corrective actions imposed on a physician,
it is true that extremely few of them result in an actual sanction by the Office of Inspector
General. Yet, it is also true that some of the physicians involved may have committed a
violation of a State medical practice act and/or may also be under investigation by the State
board.

We do not believe that the PROS would be violating a physician’s due process rights by
sharing case information with the medical boards at the time they send a first sanction notice
to a physician. A referral to the board is not tantamount to a disciplinary action. The board, if
it is to pursue the case, would still have to assemble the necessary evidence and assure that the
physician’s due process rights are upheld.

Finally, there is little likelihood, as some have suggested, that the PROS would add
significantly to the boards’ case backlog problems by referring to them those cases for which
they have sent an initial sanction notice. From October 1, 1988, to December 31, 1989, HCFA
reports that throughout the United States, the PROS issued only 349 sanction notices to
physicians.



                                               28 

                                      APPENDIX A

                  DETAILED COMMENTS ON THE DRAFT REPORT
                     AND O/G RESPONSE TO THE COMMENTS

In this appendix we present the full comments of all the parties that responded to the draft
report and our brief response to each set of comments. Our response supplements that offered
in the final section of the text.

Within the Department of Health and Human Services, we received comments on the draft
report from the Public Health Service (PHS), the Health Care Financing Administration
(HCFA), the Administration on Aging (AoA), and the Assistant Secretary for Planning and
Evaluation (ASPE). In addition, we received responses from the Federation of State Medical
Boards (FSMB), the American Association of Retired Persons (AARP), the Public Citizen
Health Research Group, and the American Medical Association (AMA).




                                            A-l
            DEPARTMENT         OF HEALTH     & HUMAN        SERWCES                         Public   Health   Serwce



                                                                                            Memorandum

From        Assistant         Secretary      for     Health

Subject 	   Office of Inspector       General    Draft   Report,              "State       Medical            Boards
            and Medical  Discipline,"        OEI-0#1-89-00560
To          Inspector         General,      OS

            Attached         are   the    comments     of     the   PHS on the   subject         draft          report.
            PHS strongly     supports     the intent     of the draft     report's
            recommendations.        The Agency for Health       Care Policy        and Research
            has already    begun discussions         with the Federation        of State
            Medical   Boards on the need to strengthen           and accelerate        the
            Medical   Boards'    research    and evaluation     capabilities.
            The      draft  report      acknowledges     that the         primary    responsibility                     for
            assuring      the effectiveness           of Medical         Boards rests      with the                      .j
            States.       In implementing          recommendations,            we consider      it
            important       to maintain       and support     the        current   role relationship
            of the Public          Health    Service    with  the        Boards,   the Federation                      of
            State     Medical      Boards,    and the States.




            Attachment
          COMMENTS OF THE PUBLIC HEALTH SERVICE ON THE OFFICE OF
           INSPECTOR GENERAL (OIG) DRAFT REPORT, "STATE MEDICAL
             BOARDS AND MEDICAL DISCIPLINE," OEI-011-89-00560

General     Comments
State Medical         Boards are integral              to the Nation's        efforts     to
assure      the quality        of medical      care.       Their endeavors         have been,
and should continue             to be, promoted          by the Public         Health    Service
 (PHS).       As  noted     in  the    draft    report,     PHS   has   provided      support    to
the Federation          of State Medical           Boards (FSMB), the Boards'
national       membership       organization         for several      significant
projects.        We consider         it important        to maintain       that supportive
relationship         while     avoiding      any actions       that could be interpreted
as encroachment           on State prerogatives             or interference          with the
State     functions       of professional          licensure      and discipline.
The primary     responsibility     for assuring       that the Boards function
effectively     rests   with the States.         Because of competing
priorities    at the State level,        the Boards have been underfinanced
and understaffed       and resources     available      to the FSMB have also
been limited.       We are pleased     to see the report       emphasizing  these
points.
We believe,       however,  that   the report   might further     acknowledge
one Federal       activity,   the National    Practitioner    Data Bank, and
the role    it    could eventually    play as a resource      to State Medical
Boards.
OIG Recommendation
PHS should collect,     analyze,    and disseminate     State-by-State                      data
on staffing,   revenue,   expenditure,     and caseload      levels    of                the
State Medical   Boards.
PHS Comment
We agree that this           information     should be collected,     analyzed,     and
distributed.         The   FSMB     already  collects  some of this    information,
and with assistance,            would have the capacity       to expand its
efforts      to include      additional     data elements.
OIG Recommendation
PHS should     convene a national      meeting    to focus attention     on the
importance     of the Boards'    oversight     role and to examine how the
Boards'    resources   and other    limitation      should be addressed.
PHS Comment 

We concur,   orovided     that   it is clear        that sponsorship       of such a 

conference   is not taken to signal            a change in the current           roles 

of the Federal     Government      and the States        in professional 

licensure   and discipline.         Federal      sponsorship     of a conference 

may be helpful     in drawing      public    attention      to problems      faced by 

the Boards,    provided     it is done in a way that cannot be 

interpreted    as Federal      meddling    in State responsibilities. 

OIG Recommendation 

PHS, in collaboration         with the Health   Care Financing 

Administration       (HCFA), should determine     ways in which HHS could 

encourage      and assist   the State Boards to contract       with 

Professional      Review Organizations      (PROS) to conduct     reviews of 

quality     of care cases. 

PHS Comment 

We see this as essentially    a HCFA concern.      In general,     we would 

encourage  the fostering   of active working   relationships       between 

the PROS and State Medical    Boards and would support       exploration 

of Nays such relationships    could be promoted. 

OIG Recommendation 

PHS should provide         financial      support    for the development   of 

performance     indicators       suitable     for   widespread  use by State 

Medical    Boards. 

PHS Comment 

We concur.   PHS intends   to continue   promoting               efforts   intended      to 

strengthen  State Medical    Boards.   Support    for            the development      of 

methods for assessing    Board performance     could             be a logical     next 

step. 

OIG Recommendation 

PHS should provide   financial            support   for technical        assistance 

efforts   intended to improve           the Boards'     investigative         efforts. 

PHS Comment 

We concur.        Identification          of investigative     "best    practices"       and 

technical      assistance        in their    use might logically        follow     the 

development      of methods        for assessing        State Medical     Board 

performance. 

OIG Recommendation
PHS, through     its Agency for Health Care Policy                  and Research
(AHCPR), should provide        demonstration   funding            concerning    the     use
of practice    standards    and guidelines   to guide             investigative
efforts    in quality    of care concerns.
PHS Comment
We concur.    AHCPR, on its own initiative,              has begun discussions
with FSMB on the need to strengthen            and accelerate           the Boards'
research   and evaluation      capabilities.       Initially        this will         take
the form of developing       evaluation      methods and a protocol               for
monitoring   State medical      Board performance.            Further      attention
will   be shown to FSMB as AHCPR's work expands in the general
areas of quality     assurance     and medical     liability.




                                               3

                       OIG RESPONSE TO PHS COMMENTS

We appreciate PHS’ positive response to our recommendations. We believe that PHS can play 

an important leadership role in helping State medical boards address their limitations. Its 

response indicates that it is ready to play that role. 


The PHS’ agreement to convene a national meeting on State medical boards is particularly 

encouraging. We urge that that meeting be held in Washington, D.C., and that it involve 

representatives from various parts of State government, not just from the boards, as well as 

researchers and others who can contribute to the deliberations. We also urge that the meeting 

devote major attention to how boards can become more effective in reviewing quality of care 

cases in the 1990s. 


With respect to the National Practitioner Data Bank, which PHS mentioned in its response, we 

do believe it can eventually serve as a useful resource to the boards. However, it is not 

directly related to the major needs and limitations identified in our report. 

                                                                              Health  Care
            DEPARTMENT     OF HEALTH   & HUMAN    SERVICES                    Financing Admtnistration



                                          3tA.   191990                       Memorandum
                                            n
Date                                   J
             Gail R. Wilensky, Ph.D. LIT
From         Administrator

Subject 	    OIG Draft Report - State Medical Boards and Medical Discipline
             (OEI-01-89-00560)
TO 	         The Inspector General
             Office of the Secretary


                    We have reviewed the subject report which finds that State medical boards
             have made significant progress in improving their disciplinary capability. However,
             case backlogs remain a serious problem due to increasing numbers of referrals and
             severe staff shortages. The report also claims that the Peer Review Organizations
             (PROS) refer few casesto the boards, and that lack of clear authority to share
             information with the boards prevents PROS and Medicaid State agenciesfrom
             providing detailed information when casesare referred.

                    The report contains five recommendations that involve HCFA. Our
             comments on these recommendations, as well as general and technical comments
             are attached.

                   Thank you for the opportunity to review and comment on this draft report.
             Please advise us whether you agree with our position at your earliest convenience.



             Attachments
              Comments of the Health Care Financing Administration 

                 on the OIG Draft Reoort - State Medical Boards 

                            and Medical Discioline 

                               OEI-01-89-00560 



Recommendation 1 


HCFA should propose legislation mandating that the Peer Review Organizations 

(PROS) share case information with medical boards when the first sanction notice 

is sent to a physician. 


Resoonse 


We nonconcur with this recommendation, becausewe believe that legislation is 

unnecessary. We believe that the current legislation and regulations allow 

for data exchange when it is appropriate. Licensing and certification 

bodies have accessto relevant PRO information upon request under the current 

regulation at 42 CFR 476.138(a)(l). The PRO may also provide the information               r

without a request when it believes it is appropriate. 


We also are currently working on two initiatives that should further facilitate the 

disclosure of sanction information to licensing and certification bodies. One 

initiative is a possible regulatory change that would require PROS to provide the 

appropriate licensing and certification bodies with a copy of the Medicare sanction 

report at the time the PRO forwards its recommendation to OIG. Subject to 

clearance by our Office of General Counsel, we also plan to advise all PROS that 

relevant sanction information can be released to these bodies under the authority 

of 42 CFR 476.138(a)(l). We had previously maintained that any information 

about sanction activities prior to the final sanction action was not disclosable. This 

revised disclosure policy will provide PROS with a clear understanding of their 

obligations and options, and PROS should then be more willing to initiate 

disclosure of information to medical boards. 

Page 2

Recommendation 2

HCFA should amend Medicaid regulations, or if necessary,propose legislation to
allow State Medicaid agencies to share case information on physicians against
whom they have taken adverse action with medical boards.

ResDonse

Although we agree with the intent of this recommendation, we do not believe this
action is necessary. The release of provider information is not covered by Federal
law, but rather by State law. If recipient information is contained in the
transferred information, the purpose of the transfer must be related to the
administration of the Medicaid program. Paragraph (d) of 42 CFR 431.302 states
that transfer of recipient information is allowed for conducting or assisting an
investigation, prosecution, or criminal proceeding related to the administration of
the plan.

It is our interpretation, based on advice from the Office of the General Counsel,
that recipient information can be released to medical licensing boards under
paragraph (d) for the purpose of assisting an investigation. We view the role of
State medical licensing boards as an integral part of maintaining the quality of care
within the Medicaid program.

Recommendation    3

HCFA should assure that Medicare carriers adhere to their responsibility to refer
casesof apparent unethical practice or unprofessional conduct to State medical
boards.

Resoonse

In accordance with Medicare Carrier Manual section 10040.E.4.b-c,carriers are
expected to refer to State medical boards or PROS physicians suspected of
practicing in a manner that could endanger the health of, or otherwise harm, their
patients. We sent a letter to our regional offices in June 1989 for distribution to
carriers to dispel any confusion concerning their obligations in such cases(See
Attachment A). Therefore, we believe that we have carried out the #intent of this
recommendation.
Page 3

Recommendation 4

The Public Health Service (PHS) in collaboration with HCFA should determine
ways in which HI-IS could encourage and assistthe State boards to contract with
PROS to conduct reviews of quality of care cases.

Resoonse

We agree with this recommendation, and would be happy to work with PHS to
accomplish this. Currently, PROS can conduct private reviews as long as these
reviews do not conflict with their contracts with HCFA This type of private
review could enhance the PRO’s effectiveness in its Medicare quality review
efforts.

Recommendation 5

The Administration on Aging and HCFA should assure that the Long Term Care
Ombudsman Program and State survey and certification agencies,respectively,
provide assistanceto State medical boards in identifying instances of improper
medical care provided to nursing home residents.

Response

We are not clear what assistanceHCFA is to provide the State medical boards
under this recommendation. It would be helpful if this recommendation could be
clarified and made more specific in the fmaI report.

General and Technical Comments

0	    The report reflects our ongoing problem with the State medical boards. As
      we have previously discussedwith OIG, the lack of communication with the
      boards is two-sided. The State medical boards give no information to the
      PROS, but this problem is not reflected in the report.

0	    The report states in endnote 42 that HCFA requires PROS to “consider”
      sharing information about a weighted severity score of 25 for one quarter
      with the State licensure boards. The implication of this statement is that
      OIG believes this “consideration” is insufficient. We continue to believe that
      a score of 25 may not truly reflect a practice pattern that should be
      reported to the board. If PROS were to report all of these cases,the
      boards would be burdened with information about casesnot severe enough
Page 4

     for them to act upon. The PRO’s contract with HCFA states that
     there must be documentation of the “consideration” and a written
     rationale for not referring the physician. Our regional offices will
     monitor the PRO’s to determine whether the action taken was
     appropriate.

     In paragraph 3 on page 9, the report indicates that detailed information
     may not be available to medical boards. Under 42 CFR 476.138(a)(l),
     information on confirmed quality problems is available to the boards.
     Further, after OIG imposes a sanction, the PRO sanction report on the case
     is also available.

     Paragraph 4 on page 9 indicates that PROS are hindered in disclosing
     information by insufficient statutory and regulatory support. However,
     42 CFR 476.138(a)(1) clearly provides the authority for the PRO to
     disclose appropriate information. Further, any State redisclosure laws
     would be subordinate to the related Federal statute.

     Endnote 6 of Appendix B (page B-l) states that all references to State
     boards include the District of Columbia as well as the 50 States. To avoid
     confusion, we recommend that the endnote explain whether this statement is
     applicable to both the graphs and the text. (For example, figures 1 and 2
     say that there are 50 States.)

     We recommend that the first sentence of paragraph 2 on page 4 be revised
     to read as follows: “Regarding immunity protection, in 1986 only one-fourth
     of the States had extended it to those not mandated to report violations to
     the board. In 1989, the amount increased to two-thirds of the States.”

     In paragraph 3 on page 6, it should state that there are now 53 PROS, not
     54.

     In the first paragraph on page 12, the first full sentence should be revised
     as follows: “Similarly, if a physician were disciplined in one State and, on
     the basis of that action, also disciplined in two other States in which he or
     she is licensed, that physician would account for three actions, one action
     reported by each of the three States.”                            ,

     We note that the percentages in Figure 6 on page 16 total 102 percent. If
     this is not due to rounding, this should be changed.
Page 5

0	   On Page 23, last paragraph, 2nd sentence,the last word “PROS”
     should be changed to “medical boards.”

0	   On page B-6, endnote 46, it should read: “See Title 42 Code of Federal
     Resulations, section 431.302.
    ‘.   .	      PO. Box 1465,
                 Nasrwlie. fh $7202
                 615-244. 56s
.




         April 18, 1989



         fearI A Hard
          Director
          Division of Cvrier    Procedures



         Two issues of artier     communications   have developed in Tcnresse.

         The first concerns our rdations with Tennesrrr .Mcdica.l Society, the &I-            Board of
         Medical Examiners and the Medical Director of the “IMA Impaired Physician Program. In the
         course of my involvement in medical mew, appeals and post-payment analysis, patterns of
         provider practice strongly suggat the probability of impairment or dysfunction. hs an
         example, I currently have on my desk the EJe of a physician in his 40’s who shows a parcem
         of practice that is more consistent with that of a third yur mcdioli student.       He is unable
         to identify clues to disease diagnosis and, as a TeSult, has a marked over-utilization pattern
         that brought him to the attention of our post-payment rcvicw s&f. He apparently attempted
         to rake a raidcncy in the last few years but did not complete the txxining. I believe that my
         rcvicw indicates the need for peer Valuation for podsible impairment or dysfunction.         Does
         HCFA have a position in writing to support a confidential referral to the Impaired Physician
         Program Medical Dirmor?

         My second need for communication is with the Medical Director of the Tennessee PRO.
         During preliminary meetings, it quickly beamc obvious that we are both working on ~SSUCS
         of over-utilization and quality concerning the Same providers. The PRO reccntiy rcceivcd
         communiations       from the HCFA IG encouraging such communication,        but there does not
         appear to be concrete authorization fat the specific discussion concerning a given provider.
         Is such authorization    currently present or is it in the process of being issued? Only by
         evaluation of the total partem (inpatient and outpatient) of pnctice can we cffcctivciy detect
         quality, abuse and/or fraud issues.

         Sincerely,


                                                                                           ,


         Medical Director
 .                                                                      Attachment    F Page 2

                            DEPARTMENT         OF HEALTH    AND    HUMAN       SERVICES



                                                                                   Refer to: BP&o11

         Robert M. Zare, M.D. 

         Msdlcal Directa 

         EQUICOB, Medicare Administration 

         P.O. Box 1465 

         Nashville, Tenneme 37202 

         Deer Dr. Zoner 

         Thank you fpr your letter to Jean A. HaHs concerning dbcIarure of phydcian

         Mormrtlo&to the PRO, the TMA Imp&r& Physiuian Program, the.Board of Medial 

         Examiners and the State Medical Society. I apologize fa the delay in my response. 

         You not only may, but should refer lnformrthn on in&&bal ph#ciana such M you

         described, to the Impaired Physician Program Medkal Director. Section 10040 

         E.l.b.(l) of Part III of the MedIcare Carrie Manual ad&we8 thatbe referrals 

         (enclosed). Such dbclowre is permitted under the Privacy Act. 

         You may also ire&y exchange infamatlon concvnfng Lndlvidual physicfans with the 

         PRO and flacal intermediaries in support of quality, abuse, end/or fraud related bum. 

         T?n govemkq dtation is 42 CPR 476.103 ’ 

         I my       m~ornaga such exchangeaof information, and &.greethat evaluation of the 

         total pattern of practice enhanas detection of poor, fraudulent and abusive provide. 


                                                      Slnccrely,


                                                      Carol J. Wllton
                                                       Director
                                                     . Office of Program Operation8       Procedures




                                                                        OFFICE                 SURNhwf   DATE
                                     SURNAME                                               I             -   -
                                                 -                         -
                                      /   I
     l

  File
‘\COPY
                                                                                                          Hrtacnment            A Pac)e 3




         11-79                          DISCLOSURE OF INFORMATION                                                     lOOLO (Coat .>

         0. Referral        to St;tt                  Llctnsinp:     Boarda,          Medical         Rtvitv        Boards,      and
Proftasional    Soclttita.­

                 s.     Referral           of    SuspendedPractitioners.--Section                1862(t)(Z)(B)       of
tht.Social            Security       Act               the Secretary
                                                requires                     to notify        the appropriate        State
or local licensing            authority       (i.e.,       State     llc&ing          board or medical t&w
board) vhtntvtr           a physici8n       or other practltiontr                  har been l usptndtd from
participation         in tht Medicare           program.          Thus, vhtntver          HCF’A suspends 8
practitioner        from participation               ln the Medicare           program      bemuse the practt­
tiontr     has been convicted           of a criminal             offense      related      to his participation
in tht‘titlc        XVIII or XIX program, HCFA vi11 promptly                            notify     the appropriate
State     or local      licensing      8uthority(its)             to (1) make appropriate               investigations,
 (2) invoke any sanctions              8vailablt          under Sratt 18~ which the l uthorlty(its)
deems appropriate,            and (3) keep HCTA and the Inspector                         Central fully and
currtncly      informed       of any action            it takes.

         b.  Referral                    By Medicare           Carriers     .---In 8ddition        to the referrals      made
by HCFA under section                    1862, Xtdicart             carriers        8re 8uthorittd      to refer   title
XVIII-related         casts of apparent                     unethical      practices        or unproftaslonal      conduct
to medical      or other professional                        soclttlts,         8nd    State or local licensing
authorities       (licensing     boards or medical    rtvttv  boards).  (Set                                          tht     routine
uses     for the Medicare       C8rritr Clatis   accords system ss described                                                in the
system notice         published   in the Federal   Rtgistt;.)

Khtn     considering        a cast  for referral,        the carrier         should      assure
itself       that substantial       basis for referral           exists;      fhat    more than mere
suspicion        is involved.       It need not conpile            tvldtnct      sufficient         to prove
mlsconducr         before referral;       it should ascertain             the probability           and
stvtriry        of misconduct      and leave     further      investigation,           ~tvitv,      and
disciplinary          action   to the oppropriart          society      or board.          Isol8ttd
lnstancts        of questionable       practices      or conduct should not normally                    bt
referred.

Further,     referral     of apparent  unethical                           practices  or a course of
ucproftssional        conduct by a practftiontr                             should only be made after                         proper
professional       advice    has been obtained                           from   the  carrier’s        physictin               staff
members, medical         consultants,  or othtr                           professional        advisors.

Since Start     licensing     boards and medical rsvisu           boards      art rtsponrlblt
for the licensing         and ssnctioniag   of practitioatrs,            cases should be
referred     to those boards only vhtrt        the 8ppartnt         uotthicsl     practices                                      or
uaproftssional       conduct is of a swtritp       to possibly          vatrant     such
sanct$ons;     casts involving       less severe impropriatirs             should   typicsllp
be referred     only to proftsmlonsl       or medical       sochties        for setion.
The folloving             art      txamplts         of cases       tbt       should     be    referred:

                        (1)    Ovtrutllitatioa.              -This          refers     to a pattern            of medical
cart     vhich        consists     of providing              more        strviccm      than     art      msdiully


  xtv.       773                                                                                                N-26.1
                                                                  Attachment   A Paqe 4




12-83                        DISCLOSURE OF INFORMATION                          10040&t)


When a case fs pending prosecution, or when a decision fs pendfrrg on whether to proceed
with prosecution, delay referral to the professional society until    (1) the prosecutfon
actfon t completed, (2) the decision is made not to prosecute, or (3) BQC authdrfzes the
referral
         Reauests for A                                           oards, or State or Local
                                                                  A ROs and carrien with
                                                                     ed, there seemsto be
three distinct situations fn which these boards mfght request as&take:
          (l)   When a case has been referred to a State or local Lfcensfng/medfcal review
board for investigation and possible sanctfons (either by HCPA as a result of the
conviction and suspension of the subject practitioner, or by a carrier), it would wrn,
appropriate for HCFA and carriers to provide assistance to the board fn its fnvestfgatlve
activity, provided the demands on staff time and resources do not become burdensomeor
unreasonable. All requuts for carrier assistance should, however be channeled through
the servfcfng HCPA RO for a determination regarding the reasonableness of the requeti
Appearance by HCFA personnel before board meetings involving a case which has been
previously referred would also be permitted.
         (2)   When a State or local licensing/medical review board requests information
or assistance on a case which was seLf-fnitfatcd (f.e., not previously referred to the board
by HCFA or a Medicare carrier) as a result of a complaint, allegation, fnqufry, etc.,
relatfve to a specific physician/practitioner9 practices, this request should be treated as a
Freedom of Information Act request. Therefore, any rquested              material   should be
screened for sensitive information, with the decision to rcleuse/wfthhoid such information
made on a case-by-case basis. Further, the board would be responsible for the Coas
involved fn providing such information (sehrchfng costs, duplicatfng costs, etc.). fn such
instances, the appearance of HCPA penonnel at a board hearing would be discouraged­
           (3) When the State or local lf~ensfng/medfcal review board’s request b for
gene& fnformatfon pursuant to a study or fnvestfgatfon of physfcfan/practftfoncr
impropriety or abuse, and is not related to a complaint, allegation, etc., against a specific
physician/practitioner; or when the request would represent a clearly unwarranted
fnvarion of peftonaf privacy, cooperation by HCPA or contractor personnel would be
dfscouraged In such instances it would be approprfate to release general or statfstfoaf
fnformatfon which did not Jdentffy speciffc fndfvfduals, however, the rquut              for
identifying information would constitute an improper search for fnformatfon.




Rev. 1010                                                                       10-27
                      OIG RESPONSE TO HCFA COMMENTS

For each of the recommendations directed only to HCFA, HCFA either disagrees or notes that 

no additional action is needed. 


On the matter of PROS sharing case information with the boards, we urge HCFA to reconsider 

its position. We elaborated on our rationale in support of this recommendation in the 

comments section concluding the report. We agree, as HCFA indicates in the “General and 

Technical Comments” portion of its response, that it is also important for the boards to share 

information with the PROS. That is an issue that the PROS and boards should address, but it 

was not part of the scope of our study. 


On the matter of allowing State Medicaid agencies to share case information with medical 

boards on physicians against whom they have taken adverse action, HCFA responds that no 

Federal regulatory or statutory change is necessary - that the matter is covered by State, not 

Federal, law. It adds, based on advice from the Office of the General Counsel, that State 

Medicaid agencies, under Federal law, can share case information with the boards. 


We are pleased to receive this response, but it is contrary to advice previously given to the 

Pennsylvania Department of Public Welfare by the Region III Office of the General Counsel 

of the U.S. Department of Health and Human Services. If HCFA’s interpretation is to be the 

guiding one, then we urge HCFA to communicate this position to each of the State Medicaid 

agencies. Such follow-up would help reduce the confusion and facilitate referrals to the 

boards. 


Similarly, we urge HCFA to take some action to assure that Medicare carriers are, in fact, 

referring cases of apparent unethical practice or unprofessional conduct to State medical 

boards. Based on the minimal number of referrals sent by carriers to the boards, the June 

1989 memorandum on the subject to the carriers appears to have had little effect. 


On the recommendation calling for HCFA to assure that State survey and certification 

agencies provide assistance to State medical boards in identifying instances of improper 

medical care provided to nursing home residents, HCFA asked for clarification on the type of 

assistance envisioned. In that regard, we note that our recommendation was based on the 

widely documented indications of improper medical care in nursing homes and on the 

minimal involvement of boards in addressing such cases. State survey and certification 

agencies as well as the Long Term Care Ombudsman Program can serve as useful channels for 

helping nursing home staff and the families of nursing home residents become better informed 

about the roles and responsibilities of the State boards. 


Finally, we made a number of minor changes in the report based on HCFA’s technical 

comments. 

DEPARTMENT       OF HEALTH & HUMAN SERVICES                                    Office of the Secretary


Administration            on Aging                                             Washington,   D.C. 20201




TO: 	            Richard        P. Kusserow
                 Office        of the Inspector         General
FROM:            U.S.     Commissioner          on Aging
SUBJECT:         Draft     Inspector          General   Report     - State     Medical         Boards

This memorandum provides                  a response  from         the Administration                on
Aging (AoA) to the draft                  report  on "State          Medical  Boards           and
Medical Discipline."
Page 24 of the draft,     third   arrow,     refers    to activities     to be
undertaken   by AoA regarding     training      of staff    and volunteers      in
the Ombudsman program to alert         nursing      home residents    and their
families   about medical    boards providing         a forum for complaints
about improper   care.
Our response       to the recommendation          is that AoA will          be pleased
to disseminate        information      about State medical          boards and their
role in identifying          improper     medical   care for nursing           home
residents.        When the final       report    on this    subject       is issued,
AoA will      disseminate      the report     to State and Area Agencies             on
Aging and the LTC Ombudsmen.               In addition,      AoA will       work with
the National       Center for State Long Term Care Ombudsman
Resources       to incorporate      information      in training       materials     for
professional       ombudsman and volunteers            about the role and
function      of State medical        boards in pursuing         disciplinary
action     with physicians        who warrant     such actions.
Thank   you for          the    opportunity        to comment      on this     report.




                                                                  Berry,     Ph.D.
                       OIG RESPONSE TO AOA COMMENTS

We are delighted with AoA’s response. We believe that over time the follow-up activities it
has identified can be quite helpful in alerting State medical boards to cases involving improper
medical care to nursing home residents.
.


     I\l.L.lll J.
 i. +-
r
:
                           DEPARTMEKTOFHEALTHbHUMANSERVlCES                                Otfce   of the Secretark
i
 5
  c
        -4
      *-‘dIC
        7      &
                                                                                           Washmgton,     D C    20201




                   TO: 	          Richard P. Kusserow
                                  Inspector General
                   FROM: 	        Assistant      Secretary   for
                                  Planning      and Evaluation
                   SUBJECT: 	     OIG Draft      Report: State         Medical   Boards and Medical
                                  Discipline      -- COMMENTS
                   The objectives           of the   recommendations are ones I strongly
                   support   -- to              and discipline
                                          identify                   physicians      who are
                   delivering    substandard    care.      I recognize the challenge            of
                   identifying    "substandard    care"       when standard practices           are just
                   being defined,     sometimes by specialty         societier;     and quality      care
                   is largely    undefined.     Furthermore,      some critics       of the health
                   care system are calling       for fundamental        changes in the way health
                   care is managed, including         limiting    external      regulation      of
                   medical practices.        Because of these difficulties,              I think your
                   work deserves praise for its ability            to showcase some of the best
                   practices   in the states     and reach toward continued              improvement     in
                   state medical board efforts.
                   Because the report   is necessarily    succinct, it does not specify
                   how its recommendations     might be executed.   I have therefore   a
                   number of questions    about them as well as some suggestions.      Let
                   me discuss the recommendations      in turn.
                   1. 	     The Public      Health Service  (PHS) should collect,     analyze, and
                            disseminate      State-by-State  data on staffing,    revenue,
                            expenditure      and caseload levels of the State medical boards.
                   According   to PHS, collecting      analyzing   and distributing  the 

                   information    itself    would be a major change in PHS responsibility.

                   Currently,    PHS contracts    with the Federation     of State Medical 

                   Boards (FSMB) to collect,       analyze    and advise states on ways to 

                   improve their     practices. 

                   The OIG recommendation      raises   a question:      Does OIG intend any 

                   major change or is the recommendation           simply an exhortation       for 

                   PHS to continue    to support FSMB’s      data collection      and analysis?

                   If a major change is being recommended, why? It seems unwise for 

                   PHS or the Department to take on an activity            currently   conducted 

                   by a private   organization      and financed partially      by the states. 

                   A second and more significant      concern to me is the utility       of the 

                   information   on staffing,   revenue and expenditures.        Will expanded 

                   availability   of the specified    information     improve states'   ability 

                   to discipline   physicians   who deliver     substandard  care?    The IG's 

                                         2

report suggests it will    not.    The problem, as identified         in the
IG's report,   is not simply that states do not have enough funds
but that a state may intentionally         withhold     revenues from the
Boards, even when it collects      sufficient       funds through licensure
fees.   If the IG's report    is correct,      is the purpose of the
recommendation   simply to shame outlier         states into increasing
support for their medical boards?
2. 	   The HCFA should propose legislation     mandating that the PROS
       share case information    with the medical boards when the
       first sanction   notice is sent to a physician.
I have two objections.         First,     the case information      ought not be 

shared when the first        sanction notice is sent because of the 

likelihood   of successful      appeal.       I understand   that more than 

half the sanctions      are appealed and most are overturned.             Second, 

legislation   requiring      PROS to give state boards the case 

information   is not necessary.           Current regulation      (42 Cq

476.137) requires      PROS to give case information           to state 

licensing   and certification         bodies upon request.       Even absent a 

request from the state board, a PRO ~n,pyprovide the case data to 

the state board. 

The OIG justification,         that PROS are reluctant    to give out the 

information    because of the threat of violation         of anti-trust, 

lacks evidentiary        support.    OIG does not, for example, identify

instances   where PROS failed        to give the requested   information. 

Based on information        in the OIG's report    on case backlogs        that 

state boards face, it is questionable           if boards could handle any 

more opportunity       to investigate. 

3. 	   The HCFA should amend Medicaid regulations,       or, if
       necessary,    propose legislation   to allow State Medicaid
       agencies to share with the medical boards case information
       on physicians     against whom they have taken adverse action.
I understand  there is a difference      of opinion within the Office
of the General Counsel as to whether Medicaid agencies        may now
share the case information.      I defer to GC to resolve the need
for any change in regulation     or legislation.
4. 	   The PHS, in collaboration   with HCFA, should determine   ways
       in which HHS could encourage and assist   the State boards to
       contract with PROS to conduct reviews of quality     of care
       cases.
I question  whether it      is wise to dilute the duties         of PROS which
were created principally       to serve HCFA.
A second concern to me is the absence of any generally   accepted
methodology  for evaluating care in a non-institutional  setting.
Our Department has major efforts   underway to attempt to develop
                                           3

methods for measuring quality               of care in physician        offices  and
other non-institutional            settings     and to determine       optimum patient
outcomes that maximize patient               satisfaction.        For example, HCFA
has had underway for more than one year the "design of an
approach to the assessment of quality                   of care in the
noninstitutional       setting."         According to HCFA, the purpose is to
"develop a methodology           to characterize         patient   populations,    the
patterns     of care they receive and the effects                 on their
health....w       The project       began in May 1989 and will            be completed
in 1991.       It might be appropriate            to refer briefly      to the
measurement problem and HHS research efforts                     as background,    if
the recommendation        is to be made.
5. 	   The PHS should provide financial         support for technical
       assistance    efforts      intended to improve the boards's
       investigative     efforts.
       The PHS should provide financial    support for the development
       of performance indicators  suitable   for widespread use by
       State medical boards.
Again, I assume OIG intends that these would be funded through
the FSMB. The second of these recommendations      is timely     since,                  I
understand,   FSMB has begun development of performance     indicators
and is looking   for additional funding.
6. 	   The PHS, through its Agency for Health Care Policy and
       Research, should provide demonstration      funding concerning
       the use of practice    standards and guidelines    to guide
       investigative  efforts    in quality of care cases.
As I indicated  above, since we are only beginning     to look at
measurements of quality   of  re in non-institutional       settings,    it
seems premature to recommen                   a demonstration      at this
time.
.




                           OIG RESPONSE TO ASPE COMMENTS

    Below we respond to ASPE’s comments on each of the six recommendations it addressed.

    1. 	   We recognize that PHS has had a close and effective relationship with FSMB.
           We urge it to continue that relationship. At the same time, in response to the
           question posed by ASPE, we note that there are also other organizations that PHS
           might contract with on specific matters concerning medical and other kinds of
           State boards.

           With respect to the comment on the utility of State-by-State information on
           staffing, revenue, and expenditures, we believe that the collection and widespread
           dissemination of such information can contribute to constructive change. It
           would identify the outlier States and raise legitimate questions about the
           performance of the boards in those States.

    2. 	   We urge ASPE to reconsider its position on the basis of the rationale we
           developed in the comments section of the report. As noted there, we believe that
           there is more than ample evidentiary support for our recommendation and that the
           proposed legislation is, indeed, necessary.

    3. 	   Our position on this recommendation is stated in response to HCFA’s comments
           concerning it.

    4. 	   We do not believe that the enactment of this recommendation would “dilute the
           duties of PROS.” Further, as HCFA notes in its response: “This type of private
           review could enhance the PRO’s effectiveness in its Medicare quality review
           efforts.”

    5. 	   Once again, while we recognize the importance and leadership role of FSMB, we
           do not regard it as the only possible vehicle of financial support concerning State
           boards.

    6. 	   Given the significance of the work of State medical boards, we believe it is
           important for PHS to move immediately in providing some demonstration
           funding concerning the use of practice standards and guidelines to guide
           investigative efforts in quality of care cases. We are pleased that PHS concurs
           with the recommendation.
                                                  July 31, 1990 


 THE PEDERATION OF 

                             Richard P. Kusscrow 

 STATE MED1CA.L %MRDS 
      Inspector General 

 OF THE UNKTED STATES, 1NC 
 Health and Human Services 

                             330 Independence Ave., SW 

 Km WErnRN PLACE
 SUITE 707                   Washington, DC 20201 

 2:       wRrH*         -s
                                                  Dear Mr Kusserow 

 817 73~844s
 Tux 117 738.6629
                                                  The Federation of State Medical Boards of the United States appreciates 

                                                  this opportunity to comment on the draft of the report titled State 

 OFFICERS                                         Medical Boa& a& Medical Discipline recently released by your office. 

 MeSlDt3NT 

 WNN6TH      C YOHN,     MD 

 IS0 N. RANDOLPH
 BUPAULA.    AL 3017 

                       AVBNUB 

                                                  As you know, I presented the Federation’s views on the report on June 

 PRESIDENT    ELECT 
                             8, 1990, during testimony before the Subcommittee on Regulation, 

 RARB4RA    9 SCtiNEIDMAN.                 HD 

 140 LAKESIDE
 SEATTL6.
                 AYE, MO 

            WA WI22 

                                                  Business Opportunities and Energy of the House Committee on Small 

 VICE PRESIDENT 

                                                  Business.Rather than repeat those remarks here, I am attaching a copy 

 MELVIN   E ~ICE.L MD 

 2211 PARX AVIINIJE SOUTH 

                                                  of that testimony to this letter. Please consider it the Federation’s formal 

 MINNEAPOLIS.     MN 3%4&I 

                                                  response to your request for comment, 

 TREASURER 

 SUSAN H SPAULDINO 

 P.0 BOX 112 

 MoNT?e.LIBR.  VT o%oI 
                          Sincerely 

 DIRECTORS
 SUSAN P DEHRPNS.             MD
 IDDS HL’EBBE   PKWY
 nELoIT,   WI ml1

BTEPHEH     P. KELLW,  JD
1600 T.C.F. TOWER
MINNMPOLIC,       MN 0402

EARLE     M. WBRNOIS.            MD
                                                  James R. Winn, MD 

lbts CMPUS tn.
KLAHATH       MLLS.        OR WIaOl 

                                                  Executive Vice President 

WORM02 IASSEKW,              MD 

001 RlDOE     ST. AC’S 

                                                  JRW:lm            .
COUNCIL     DulPF’& IA SlKlJ 




ANDREW    0, WDNAR               MD,    ID 

10 EMERSON   PLACE.           ht.f 

106toN.  MA 02114 


LBKOY I DUCKLOR      MD 

“yo&mD~~rr~     d. 



RENDEL   L. LBVONLAN.  MD 

P.O. ROX ?$b 

PICO RW3RA.    CA KM0 


~.R.o~      EXON
MONTOOMERY,           AL lb102




JAMES R WINN. MD
EXECUTIVE  VICE PRILSIDENT

DALE 0 BREADEN
ASSOCIATE    eXECUfrVE
VICE PReslDeh7

I XATHRYh    HILL. MM
ASSISWlc?   BXEWTIVE
VICE PIIESIDWT
      UNITED STATES HOUSE OF REPRESENTATIVES
SUBCOMMITTEE ON REGULATION, BUSINESS OPPORTUNITIES
 AND ENERGY OF THE COMMITTEE ON SMALL BUSINESS
                           June 8, 1990




                       James R. Winn, M.D. 

                     Executive Vice President 

   Federation of State Medical Boards of the United States, Inc. 

           TESTIMONY ON THE REPORT OF THE INSPECTOR GENERAL,
         DHHS, ON STATE MEDICAL BOARDS AND MEDICAL DISCIPLINE


   Good afternoon, Mr Chairman and members of the committee. I am James R. Winn,
MD, executive vice president of the Federation of State Medical Boards of the United
States. Founded in 1912, the Federation is the national voluntary association of state medical
boards, both allopathic and osteopathic, and is comprised of sixty-six member boards. The
Canadian provincial medical licensing authorities hold affiliate membership in the Federation
as well. The Federation is a parent and member organization of the National Board of
Medical Examiners, the Educational Commission for Foreign Medical Graduates, the
Accreditation Council for Continuing Medical Education, and the American Board of
Medical Specialties. It also maintains liaison with major medical organizations in the United
States and with the medical licensing authorities of several foreign countries.
   Through its FLEX Board and in cooperation with the National Board of Medical
Examiners, the Federation structures and conducts the Federation Licensing Examination
(FLEX), the test instrument for medical licensure used by all states and several other
jurisdictions. In early 1988, the Federation introduced the Special Purpose Examination
(SPEX), a test instrument designed to assist boards in assessingthe qualifications of
candidates for licensure by endorsement who have not been examined for some years. A
complete computer record of FLEX and SPEX scores, along with appropriate biographical
information on examinees, is maintained by the Federation.
   Today, the Federation and the National Board of Medical Examiners are cooperating in
the development of the United States Medical Ikensing Examination, a three step test
instrument that will provide, for the first time, a single examination program for medical



                                               1

licensure. As a result, within a few years, all eligible candidates for medical licensure will sit
the same examination sequence. This will be a major accomplishment in medical licensure in
this country, a step thought almost impossible not many years ago.
   The Federation also operates the nationally recognized Board Action Data Bank, the
preeminent system for collecting, recording, and distributing to state medical boards and
appropriate agencies data on disciplinary actions taken against licensees by the boards and
other governmental authorities, including the military and the Department of Health and
Human Services. In the past six years, over 550,000 inquiries have been processed by the
data bank. In 1988 and 1989, the Federation developed and implemented the Direct Access
System (DAS), a program for allowing secure on-line accessto the Board Action Data Bank
by state medical boards and other authorized users. The Board Action Data Bank is the
most sophisticated and reliable resource of its kind. It has effectively assured that no board
-sanctioned licensee can move within the medical system undetected.
   Along with its other activities, the Federation collects and publishes the most complete
information available on physician licensing and disciplinary boards and maintains a resource
library of the various practice acts and rules under which its member boards operate. That
library is the only central collection of such material in the country. The Federation also
offers the states and the boards specific policy recommendations related to medical licensure
and discipline. Those recommendations are actively promoted in several publications, such as
the Guide to the Essentials of a Modem Medical Practice Act and the Model for the
Preparation of a Guidebook on Medicai Discipline. The Federation’s educational activities

include its Annual Meeting and publication of the monthly Federation BuZZetin, the quarterly
FSMB Newsletter, and the biennial Exchange. The Federation Bulletin, by the way, is the

world’s only journal devoted exclusively to medical licensure and discipline. Under federal



                                                2

contract, we have also developed and disseminated the Elements of a Modem State      Medical

Board designed to encourage boards to review and assessthe effectiveness of their structure

and function.
   The Federation, as I believe you can see, is the national clearinghouse, forum., and
representative body for state medical boards. It occupies a unique position of responsibility
in relation to its member boards and the people of the states they are charged to serve. It
makes and will continue to make significant contributions to the effectiveness and integrity
of the medical licensing and disciplinary systemsthat are essential components of medical
quality in the United States.
   For your information, I have attached to these prepared remarks copies of the Federation
publications I have mentioned.
   I deeply appreciate this opportunity to share with you the views of the Federation
relative to the report titled State Medical Boards and Medical Discipline recently prepared
and issued by the Office of the Inspector General of the Department of Health and Human
Services.Like you, we have looked forward to the appearance of this report. We cooperated
closely with those who prepared it and believe it reflects a thoughtful effort to summarize
the current situation in medical discipline. I should note that we also worked with the Office
of the Inspector General in 1986 when it produced its first report on state medical boards.
That study was a healthy exercise that reinforced and supported many positions advocated by
the Federation for years. Our response to that earlier effort was presented in detail in an
editorial in the JoumaZ of the American Medical Association, a copy of which I have attached
to these remarks and also ask be included in the record.
   I should like to compliment you, Mr Chairman, and the members of this committee for
your recognition of the role of state medical boards in enhancing the quality of medical care



                                               3

in this country. Your interest in the current report clearly indicates your concern. Those of
us who have served on and work with state medical boards appreciate, possibly better than
any other group, the importance of this issue. Based on our real and sometimes painful day-
to-day experience, we recognize the need to assure the qualifications and fitness of licensed
physicians in an effective and practical way.
   As you know, in this country, the duty and responsibility for medical licensure resides in
the states. We who function within that pluralistic system and strive to make it as effective
as possible feel our obligations deeply. We are always pleased to find support for our efforts
and a recognition of our problems in the halls of Congress.
   The power exercised by the people of the states, acting through their legislatures, to
establish those systemsthey believe would best protect their interests is fundamental to
responsive and responsible government. One of the strongest elements of our state-based
pluralistic licensing structure is the flexibility it allows the people of the states to develop
and test a variety of approaches to the problems facing all boards. From the oversight of
residency training to initial licensure, from license reregistration to disciplinary process,
improvements have been dramatic over the past two decades,thanks in many ways to the
power of the states to seek better approaches to meeting their responsibilities. Yet we have
far to go.
   As the IG’s report makes clear, many state boards must struggle to fulfill their regulatory
obligations within financial and/or statutory constraints that can effectively block their efforts
to protect the public. Board revenues should be dedicated to board use and boards should
be authorized to set fees at levels adequate to provide the funds required to do the job
expected of them. Obviously the boards should be fully accountable for their use of funds
and reports to the legislature and the public should demonstrate the level of their



                                                 4

performance. Many of the suggestionsmade in the report must focus, f%r~a.lly,
                                                                           on the question
of proper financial support of the boards. The Federation has done all in its power over the
past few years to emphasize the importance of this issue.
   The “clear and convincing evidence rule”, most common now, should not be applicable in
board cases.That standard of evidence is unrealistic when measured against the potential
danger presented the public by the unqualified or the unfit practitioner. The public interest
would be best served if the “preponderance of the evidence rule” were applied in board
cases.We have been urging this change on the states for some time.
   In many states, there is room for significant improvement in board structure, function,
and authority. I would urge you to review our Guide to the Essentials of a Modem Medical
Practice Act and the Elements of a Modem State Medical Board for detailed proposals

relating to this point. I will not attempt to outline all those proposals here.
   I would like, however, to emphasize the vital importance of a systematic and coordinated
effort to find and act on problem physicians.
   I am presenting materials to you today for inclusion in the record that describe a concept
of license reregistration that centers on the steadily improving identification of unqualified,
unfit, and impaired physicians. Building on information that is generated every day reflecting
physician performance and behavior, it places attention where it belongs -- on the problem
physician. The system is based on mandatory reporting to boards by health professionals,
health care institutions, liability insurance carriers, courts and law enforcement agencies,
professional and specialty organizations, specified state agencies, and others. This mandatory
reporting is complemented by an annual or biennial self-reporting program requiring the
licensee to report to the board all relevant adverse information about himself or herself that
may have developed during the reregistration period. At the same time, the licensee’s



                                                5

professional profile (practice location, specialty, professional memberships, hospital privileges,

CME activities, licenses held, etc) is updated, allowing a review of sudden changes or

patterns of change. Taken together, mandatory reporting and self-reporting permit a board,

operating as all do with finite resources, to concentrate time and effort on markers and

indicators of possible problems - red flags for board attention and potential board action.

   Today, most states are moving to such a system. Data accompanying the material I have

made available for the record will provide you a clear idea of the progress that has been

made over the past several years.

   But I must add that the system of license reregistration I have described could have stiIl

more impact if professional review organizations were mandated to communicate more

effectively and promptly with state medical boards. Peer review organizations are currently

funded to evaluate the quality of care rendered to Medicare patients.       As a result of their

quality assurance review, PRO’s identify those physicians who are deemed to have a

substantial number of quality issues in a substantial number of cases and they subsequently

institute corrective action plans for the physicians so identified.   State licensing agencies

should be promptly notified of all physicians who have been identified as requiring corrective

action in order to establish an effective monitoring plan by the medical board.       State

medical boards could then initiate appropriate action if the remedial efforts of the PRO are

ineffective, or if the physician attempts to avoid review by relinquishing his participation in

Medicare.

   Here is a specific area where federal legislation is appropriate and needed. The Congress

can establish parameters for mandatory reporting to the boards by PROS. I would urge you

to concentrate on such an effort as soon as possible. Unfortunately,     effective reporting by

the PROS may not develop without the specific mandate of Congress. I believe the




                                                  6

commendable purpose behind the IG’s report would be well-served at the federal level by
swift action to enhance the reporting responsibilities of PROS: already existing and funded

agencies whose role in quality assurance would be dramatically improved by effective

cooperation with the state boards. The states are doing their job better each year, as the

IG’s report indicates. Appropriate   action by Congress in this area would assist them in doing

it still more effectively.

   Enhance and fund the quality review activities of the PROS and mandate their reporting

to the boards. Focus the energy and resources we have available on the problem physician.

   Let me say a word about the recommendations made by the report, because, finally, they

are its substance.

    I have already expressed to you our strong support of the first recommendation, directed

to the states, about adequate board funding. I will not repeat the point but only stress again

its vital importance.

    The second recommendation, directed to the Public Health Service like the five that

follow it, calls for the collection and analysis of state-by-state data relating to board staffing,

etc. I would suggest that this is a task best left to the Federation, though it would be helpful

if Congress would authorize funding in the credentials area that could be awarded through

HRSA to assist in such an endeavor. The Federation’s already existing publication, the

Exchange, would be the ideal vehicle for the collection of data. It is our understanding that

Congress has not included funds that can be used to support programs related to state

licensure and discipline in recent PHS appropriations. This should be corrected if the federal

government is to be of service to the states in this area.

   The third recommendation,     calling for a national meeting on the role of state medical

boards, should be pursued by working in conjunction with the Federation’s Annual Meeting,



                                                 7

at which every state board is represented and to which key state legislators are invited. We

would be happy to discuss this with the PHS at any time.

   The fourth recommendation, related to boards contracting with PRO’s to conduct reviews
of quality of care cases, is worthy of discussion in an age when the quality improvement

question is becoming more and more central to board concerns.

   The fifth recommendation     calls for funding of the development of performance indicators

for use by the boards. It correlates with the twelfth recommendation, calling on the

Federation to facilitate board performance assessment. The thrust of these recommendations

is the same, and I am pleased to tell you the Federation has already initiated a project that

will develop a performance self-assessment instrument for the state boards over the next

fourteen months. This project has been in the planning stages for some time and will

complete the cycle of studies that has produced the Guide to the EssentiaLs of a Modem

Medical practice Act, A Model for the Preparation of a Guidebook on Medical Discipline, and

the Elements of a Modem State Medical Board: A Proposal Needless to say, the

recommendations in the IG’s report encourage us in our effort and we appreciate the

support they provide.

   Recommendation       six, which encourages PHS funding to support the improvement of the

investigative efforts of boards, is commendable. The Federation has appreciated the financial

support it has received from PHS in the past. That support has been of great benefit in

several Federation programs that have led to significant changes and improvements in

boards. Further assistance, such as that proposed, could be of great value.

   Recommendation       seven calls on the PHS to provide demonstration funding concerning

the use of practice standards and guidelines in the investigation of quality of care cases.

That would ?e useful, of course, but only when such standards and guidelines have been




                                                8
effectively developed with significant input from and acceptance by the medical profession.

At that time, boards will certainly seek efficient methods for using them - an effort that will

justify such funding.

   Recommendation       eight concerning the sharing of PRO information with boards is clearly

important. I have already discussed that issue at some length. Recommendations nine, ten,

and eleven also deal with providing additional information    to boards from Medicaid,

Medicare, and several other sources. As you can tell from my previous remarks, having

access to such information    is an essential part of an effective markers and indicators system.

Our major concern is that the boards have the funds necessary to use the information

promptly and well.

   Recommendation       thirteen, concerning the continuing efforts of the Federation to assist

boards in improving their licensing and regulatory processes, is, I can assure you, a

fundamental part of the Federation’s organizational commitment. Even the most cursory look

at our efforts over the past decade indicate that fact. I sincerely believe that much if not

most of what appears in the report and much of the debate concerning licensure and

discipline in the country today stems from work the Federation has done throughout these

years. Recently, thanks to changing professional and public attitudes and to media attention,

people have begun to listen. State legislatures have begun to feel the pressure. Needless to

say, we do not intend to stop.

   We certainly agree with the final recommendation, number 14, that state governors and

legislators should make every effort to address the problems of the boards more effectively.

As suggested, their various national organizations can serve a role as stimulus in this, but we

would suggest they begin with a careful study of all the material already developed and

disseminated by the Federation and the IG’s office. Efforts to reinvent the wheel will only




                                                 9

slow the process. The time has come to move.

    On page twenty of the report, the statement is made that the actions of DHHS

“concerning State boards...should be supportive of State government roles.” We

wholeheartedly agree with that and consider it a healthy recognition of the obligation of the

states. We are a bit less comfortable, I must tell you, with the statement on page 21 that

PHS “consider the future Federal relationship with the boards more in terms of a

partnership addressing joint concerns than one involving separate spheres of responsibility

addressing separate concerns.” I agree we have joint concerns. That is patently obvious. But

there are separate, recognized spheres of responsibility that cannot be allowed to blur simply

because we find them inconvenient. Support and cooperation are appropriate and necessaty
BSthey are essential. But the word partnership may be seen by many to imply something else

- to suggest some level of direct federal authority in medical Iicensure. I believe even the

hint of that should be avoided. This responsibility falls to the states and they must meet it

directly.

    A question that rather naturally arises from this report - and one I have often been

asked - is how one differentiates between a good board and a bad one. I wish there were a

simple answer to that, but there isn’t. The issues and forces involved are too complex. But I

must say, I believe the question itself is wrong. Boards are not good or bad. They are strong

or weak -- and their strength or weakness is largely attributable to the statutes and policies

of their states.

   Underfunded, understaffed boards attempting to function with outmoded statutes,

inexperienced legal counsel, and inadequate investigative resources will be weak and will

perform accordingly. States that fail to empower and equip their boards and make them

accountable - all at the expense of licensees, please recall - fail in their duty to the public.




                                               10 

That is inexcusable and the public should demand corrective action by state legislators. The

media, I should note, have provided a valuable service in the past ten or fifteen years in
focusing attention on this issue and on stimulating that public demand. We hope they

continue to do so.

   The Federation does not pretend there is one best form of medical statute or medical

board. In its Essential and the Ekments, however, it has tried to provide some suggestions

to stimulate a useful dialogue in and among the states. There is no doubt that stronger

boards are being created as a result of that dialogue.

   At the same time, through the self-assessment program now being developed by the

Federation., states and their boards will be enabled to evaluate overall board performance

more efficiently, determine board needs more precisely, and strengthen board efforts more

effectively.

    Unfortunately,   there are no legislative magic wands, either state or federal, with which we

can wave away the challenges that face the boards or conjure perfect solutions. We are

dealing, after all, with human beings functioning in human systems and limited by human

knowledge and experience. Working together, however, in our appropriate roles, with the

commitment and concern that motivates us all, the states and their medical boards, the

federal government, and the medical community can realistically address the issue of quality

improvement. Dr Oliver Wendell Holmes once wrote that “the great thing in this world is

not so much where we stand, as in what direction we are moving.” I believe we have been

moving in the right direction and that the IG’s report is a valuable signpost along the way.

   Thank you.




                                                11 

.   .




                             OIG RESPONSE TO FSMB COMMENTS

        We appreciate FSMB’s positive response to the report as a whole and to the recommendations.
        We believe that FSMB can make particularly valuable contributions in the 1990s by leading
        efforts to develop and disseminate quantitative indicators of State medical board performance
        and to improve the boards’ effectiveness in reviewing cases involving the quality of medical
        care rendered.
                         Bringing   lifetimes   of experience   and leadership to serve all generations.
August         15,    1990

Richard    P. Kusserow 

Office   of the Inspector    General 

Department    of Health   and Human Servi 

330 Independence     Ave. S-W. 

Washington,    D.C. 20201 . 


Dear     Inspector            Kusserow,
       The American Association     of Retired-Persons                                               is very pleased
to submit   these comments on your draft        report                                         entitled     tlState
Medical   Boards and Medical    Discipline."
       The Association      commends the authors      of the report      for                                            their
excellent    work.      The document makes a significant       contribution                                                     to
the effort     to improve     state boards, patients'      @@front-line@'
defense    against    incompetent   medical practice.
        AARP has been                  increasingly       active                 in that         effort,       and we are
delighted    that the                  report     acknowledges                   several         recent       activities.
         We have reviewed   the findings    and recommendations     of the
draft     and find that we are in agreement       with most of its thrust,
focus     and content.    Accordingly,   the following     comments address
those     areas where we have additional      suggestions.
Peer Review             Organization-Medical                         Board       Data      Sharing
       AARP applauds     the report's      emphasis on the importance   of
increased   data sharing      between Peer Review Organizations       (PROS)
and medical    boards.      In particular,     we support the move to
mandate specific      kinds   of PRO data sharing.
         The interests       of patients       require    earlier       rather    than later
PRO notification         to the appropriate-medical                 board of quality        of -
care concerns.          Towards this        end the draft         report's     data sharinq
recommendation         needs to be exuanded bevond sanctions-related
information       to include       material      produced    by PROS' quality          review,
beneficiary       complaint,       and utilization        review       processes.      In
addition,      medical     boards'     sharing      of information         with PROS, i.e.,
a two-way      flow of information           would, we believe,            enhance and
facilitate       PROS' quality       assurance       responsibilities.
         Mandated data sharing       related      to the various    PRO review
activities      will     need to encompass a number of decisions            on the
timinq     of board notification,          as well as the severitv       of problems
triggering      communication.        In this     connection,    a mandated   sharing
prescription        will    need to differentiate       between data sharing       for
   ,\nwrican    Aaociarion   of Retired    Persons      I 909 K Stwet. 9.W..    Wahinpn.       D.C.   20049   (201j X72-4700
supervision      of staff,  high staff           turnover,      low staff to resident
ratios,      and the use of temporary            services      were deemed to be
contributory       factors.
        It concerns       us, therefore,     that   in this   latest   report
nursing      home administrator        boards are not.identified         as agencies
in a position        to monitor     or correct    these problems.        Neither,
apparently,        were nursing     home administrator      board organizations
interviewed        by the IG in the course of the study.              We urge that
nursing      home administrator        boards be included       as part of the
solution      to the problem.of        improper   care, working      as they do with
their     "cousin"     *agencies,   the medical     boards,   in the state
regulatory       apparatus.
Improved      Effectiveness       in Reviewing       Quality      of    Care Cases
      We agree that the FSMB is well suited            to help state  boards
improve their  effectiveness        in reviewing    quality   of care cases.
However,  we would like       to see the list    of groups in a position     to
help boards expanded to include           other organizations    such as
advocacy  and public     interest     groups.
Development       of    Performance     Indicators
        We strongly      support  the need for developing           performance
indicators      suitable     for widespread    use by state        medical     boards.
Towards that end,         a  very promising    source   of    input    into    the
development      of such indicators,        namely,   public     members      of   medical
boards,    has been proposed        by the OIG draft       report's      director,      Dr.
Mark Yessian.
      Speaking         to those members       at a 1989 meeting   conducted          by
AARP's Citizen           Advocacy Center,      Mr. Yessian observed:
         . . . it would be important    to begin to develop       some
       It

       consensus      about those variables       that really  are key
       indicators      of board performance       and that should be used
       to compare performance        in different      states.
        . ..This is a aood area for nublic          members of medical
       boards to exert    some leadershin....(including)          making
       the case for the kind of indicators             that will help
       boards have more credibility        with the public.
       These aren't  matters     of medical               discretion.      These are
       matters  that intelligent     people               can address     and that depend
       on good common sense."'



       1 The full       text   of his   address      is    attached.
                                                3
Conclusions:

        We strongly     commend the draft           report    and appreciate          this
opportunity      to share our reactions.               In particular,          we welcome
the emphasis       on data sharing        between PROS and state               medical
boards,     as well as greater         involvement         by other agencies           and
associations       to help state       boards improve their             effectiveness         in
reviewing     quality     of care cases.           We also strongly          support      the
commitment      of the report       to improve and evaluate              the boards'
oversight     role through       increased       funding     and greater        national
attention.         We look forward        to further        communication        with your
office     and other    interested       parties      concerning      these important
matters.

Sincerely,



k+   n Rother
 irector
Legislation        and Public
Policy     Division




                                                 4

                  “DARE TO COMPARE:
         ASSESSING THE PERFORMANCE OF STATE
                    MEDICAL BOARDS”
      Luncheon Address by MARK R. YESSIAN, Ph.D., Regional
      Inspector General, HHS, at the Citizen Advocacy Center
      Fall, 1989 meeting of public members of medical boards
     MY remarks today have to do with a perplexing question:                   How
do you know a g&d medical  board when you see one?
       Based on documents such as Ken Wagstaff's                  reports to the
California    Joint    Legislative      Budget Committee; AARP@s report,
Effective                      _----- Prescriotion
            Physician 6versiaht:        ---~ ---- ---~- for
                                                         -~- MedicalA
                                                               ---~~-~-~ Licensing
Board Reform; Bob Felln ne       th’s    Code    Blue   Emersencv     report:   the
Federation    of State Medical B                                    'Modern -State
Medical Board:      A Proposal; my office's           reports;     and other such
"enlightened"     sources;      a good medical board might have the
following   characteristics:          -
       It would have a full       complement of enforcement tools,
including  revocation,   suspension, probation, reprimand, and fines
of a substantial   size. A good board would have authority to impose
immediate suspensions,      to issue subpoenas, and to .require      a                .
licensee to come in to take a medical exam when there is reasonable
cause.
      It would have annual license renewal fees of $200-$300 or more
that would be put in a special fund just for the board. The money
would be used to hire ample investigatory         and legal   staff,
computerize records, establish a tracking system, and provide board
member training.    The board would be composed of 12-24 members --
  at least 25% of whom are public members -- who are adequately
compensated for their time, maybe at a rate of 314 the salary of
the State Commissioner of Health.
        A good board would have a sophisticated                system for
prioritizing     cases.     It would have guidelines       for determining
appropriate      sanctions.      It     would have close       cooperative
relationships     with PROS, with state medical societies,      with state
Medicaid fraud units, and with state Attorneys General.            It would
provide immunity for all those reporting          cases to the board.     It
would conduct computerized          detections    of patterns    of errant
behavior.     It would take on complex cases.          It would issue its
phone number in all the white pages and yellow pages throughout
the state.     It would have a toll-free       number.
      I think      if  any of us saw a board with all of these
characteristics,      we would tend to say it was a good board.     It
would probably     impress us. Yet, as important as all these elements

                                         1
.




    are, they leave out one essential factor: actual performance.        For
    instance, who Is to say that a board with ample resources and ample
    authority    will     necessarily use these resources and authorities
    effectively?       If I might get a little closer to home, who is to say
    that a board with 25 percent or more public members is necessarily
    an effective      one?
           I would say that all the elements I have run through quickly
    and haphazardly    are really    only enabling elements.          They are
    elements which, if put in place,        enable   a    board   to   function
    effectively.   .You might even call them prerequisites,        although we
    might argue about some of them.          Essentially,       they are not
    performance indicators,    but rather enabling elements.
          So, if we want to answer the question,     "1s the board a good
    one?" don't we have to go the next step and look at actual
    performance -- that is, at the actual work being done and the
    outputs of the board?       If the answer is "yes," the question is
    still  the same. How do we know a good board from a mediocre board
    from a poor one? Or, maybe better yet, how do we compare the
    performance of a particular     board from one year to the next? How
    do we know if it is doing better,or      worse?
          There is a school of thought out there that, except perhaps
    at the margin, you can't and probably even shouldn't       ask this
    question about performance.     It is a well ingrained    school of
    thought, I would say, and will exert significant    constraints   on
    any initiative'  to address performance.    The arguments against
    performance assessment go something like this:
           Each case reviewed by a medical board is unique, with its own
    particular     circumstances   and characteristics.   The board has a
    responsibility      to recognize these distinctive    features  and -to
    respond in a fair manner, balancing the rights of the individual
    with those of the public.       Its job is to dispense justice, not to
    generate statistics.
         This leads to a concern about quotas -- about the pressures
    to produce increasing numbers of scalps.    To that I might add that
    the critiques   by the Sidney Wolfes and the Bob Fellmeths and even
    the Mark Yessians tend to add to these pressures.      Such pressures
    could lead some boards, I think it is fair to say, to act hastily
    and to focus on easier'cases   to generate more numbers. I am sure
    there are various      other ways these pressures     could lead to
    unhealthy distortions.
           Another argument against performance assessment is that boards
    tend. to deal with complex matters involving             the performance of
    highly    trained   professionals.        In   determining      whether these
    professionals     should    be    sanctionned,     particularly      in cases
    involving the quality of care, the boards need substantial             latitude
    to make decisions based on expertise.           They need to operate with
                                           2
a good bit   of independence and public     trust.
       Finally,   just  as each case is unique, each state medical board
is unique and works within a different         political,  economic, and
administrative       context.    A board is a product of its state
government and can't be held, accountable- for matters it can't
control.      Thus, comparison of boards across states is inherently
flawed.
      Well, have I destroyed the case for performance assessment?
I don't raise these issues cynically,       or dismiss them. There is
a lot of truth in these arguments. There are Inherent limitations
to addressing board performance.      If handled unwisely, performance
assessments CM be counterproductive      and very detrimental.    Without
question, there are many sensitivities      and subtleties   that surface
reviews can easily miss.
       But, where does that leave us? In this era of bottom-line
accountability,       are we then to conclude that boards shouldn't be
held accountable for their performance?          that there aren't any
specific    quantitative    ways performance CM be measured? that it
is enough just to focus on the enabling elements?
      Obviously,   I think   not.
       Isn't  it M obligation      of public entities   such as boards to
develop yardsticks       that CM be used as guides -- not proof
positive,    but guides -- in assessing their performance? Shouldn't
taxpayers expect this?        wouldn't such yardsticks   be useful in the
sunset reviews that are performed In 40-some states?             Corporate
leadership      has all    kinds of quantitative       measures of their
performance.      IS our world of public boards so much more complex,
so much more unique, that we can't expect to do some of the same?
       while the job is a difficult     and sensitive  one, I really do
think the difficulties    here are muchmore political    than technical.
Boards, I think,       CM  and should develop specific      quantitative
indicators    of performance     expressed in terms of ratios           and
percentages that facilitate       comparison.    True, such indicators
might expose boards to more "pot shots" by people like us and
others in your own state, but you're going to get those anyway.
Might they not also let the boards be more proactive in determining
the bases on which they are to be evaluated?
        I would argue that specific   indicators   of this sort over time,
would add a lot of credibility          to the boards and would help
significantly      in improving their performance.    If you CM buy that
for a moment at least, how do we go about doing it? How do we even
start?      The first   thing I think is to promote the idea --to make
a case that addresses some of the concerns I raised earlier.              It
is important to stress that in trying to get specific        quantitative
measures of performance, we are looking just for indicators               of
                                     3
.    .




           Let me start with the most provocative part -- the disposition
    of cases.     This includes reported disciplinary      actions,  informal
    settlements,    and cases that are dismissed.     Reported disciplinary
    actions is easy to focus on. It's tangible and readily available.
    The AARP report says, "The simplest way to ask how well a board is
    performing is to ask how many disciplinary       actions it takes."     In
    defense of this simple indicator,      I think it is a pretty useful
    yardstick,    especially   if it is used as a ratio -- disciplinary
    actions per licensed physician or per active physician -- and if
    it is aggregated over two or three years.       The data should reveal
    actions by type and actions based on the grounds, the reason for
    the action.
         If   all we focus on is the number of disciplinary          actions,
    there can be some of the negative consequences I mentioned.            But,
    consider this:     if  a board is consistently  on  top,   it is  fair   to
    ask if that board is being overzealous.        Good  performance    is  not
    necessarily   just more scalps.    It is reasonable for physicians and
    others at some point to say, hey, that board's not being fair to
    physicians.     I think that should be part of the debate.
           What other kind of indicators   might be developed concerning
    the disposition   of cases.3 What about the educational interventions
    and other remedial actions not reported in the Federation's         data
    bank? Frankly, I am surprised that the boards and the Federation
    have not put more emphasis on documenting such dispositions.          If
    such data were tabulated     along with data on formal disciplinary
    actions,    the boards and the Federation      would be in a better
    position   to respond to the critics   who suggest they are not doing
    enough.
            In the sphere of case review, I would say the most important
    thing to measure Is processing time.            How long does it take to
    process cases, however you define the beginning and ending points? a
    Wouldn't such data provide a powerful comparative tool?              In the
    sphere of identification       of cases,  California    leads the parade  by
    publicizing    detailed statistics    in M annual report, including even
    disciplinary    actions by type of referral      source. I think that kind
    of data CM be enormously helpful.
           The last sphere, quality        of care, is tougher to define and
    more qualitative.       We see significant    stirrings     as boards get more
    involved in preventive       actions that are informational        rather than
    disciplinary.         Some boards are actually         doing peer review or
    overseeing the peer review activities          of hospitals.      We even hear
    of practice audits, and things of that nature.             Well, these actions
    should have more status than just "other."                   If this kind of
    activity      increases in scope and significance,         we need to develop
    measurement indicators      to determine whether a board is doing a good
    job.
          Let me tease you with one final      thought.    In 1994 or 1996, or
                                          5
                             .




1998, or whenever, there wiUprobably       be a time when there is some
kind of universal medical coverage at the national level. Who will
have the prime public      responsibility     for overseeing    minimum
standards of care? Will It be the medical board3 Will It be the
PRO,  or some successor  federally    funded entity?    Or, will It be
both? And, if It's both, what are the complications          associated
with that?    I pose the question because I think the answer, at
least in part, can be determined by what the boards do today and
in the ensuing years.
        Now, let'me wrap up by telling             you the criteria        we use in
evaluating      boards.   We    did     a   study    three    years    ago    and are
initiating     another one  right     now   of  state    medical    boards.     In our
prior      work in this area,       we    have    used    essentially      two   basic
criteria.      One focuses on those enabling elements I talked about.
We do some counts and are able to say things like,                       X number of
boards don't have sufficient            authority      or sufficient       resources.
The second criterion       is the "how many" questions                  -- how many
disciplinary     actions are being taken by each state?               Such a review
always reveals significant          variations      that raise questions about
the performance of some boards.
      With the upcoming study, we're going to add something new.
I think it will provide some data that will be helpful           in moving
us toward some of the performance.indicators         I have been talking
about.      What we will do is seek Information      on all disciplinary
actions taken In 1988 In a randomly selected sample of states.
This will involve about 200 cases. For each case, we are going to
ask questions about the referral     source, the date of the initial
complaint,    the date of the final action,      whether the action was
stayed or appealed, the reason for the action, even the setting for
the action.       I think this will   be the first      time anyone has
gathered quantitative    information about a sample of cases that will
provide us with a good profile        of, disciplinary     action.      Most
 important,   It will let us make some correlations       by disciplinary
action, by processing time, by basis for referral.
       Lastly, we will take      a look at the quality of care realm, more
in a descriptive   than an       evaluative    way. We want to try to get a
picture of whether these          preventive-type    actions that boards are
taking are only marginal          activities     or perhaps indicators   of M
evolving board role that         will be more significant     in the future.
      With plenty of limitations     and caveats, we hope the data we
gather will     let us say a little       bit more about a board's
performance.      But, most importantly,    I hope it will     stimulate
broader discussion     of performance indicators.    If critics     don't
like the indicators      we have used, perhaps they will think of a
better way to do it.      The fundamental challenge to the leadership
in this field     is to dare to compare -- to develop a few basic
indicators   of medical board performance and then to use these
indicators   as comparative guides to performance.
                                          6
                      OIG RESPONSE TO AARP COMMENTS

We are pleased by the AARP’s supportive comments on the report. Below are some of our
own comments responding to particular points made by the AARP.

On PRO-State board data sharing. We welcome further consideration of even more
extensive data sharing along the lines proposed by AARP. We also recognize that it may be
useful to make some distinctions between data sharing intended as an early warning and that
concerning cases where there is compellng evidence of poor quality care. Our major concern
is that there should be more exchange of detailed case information between PROS and boards
in cases involving serious quality of care problems and that in some way such sharing be
mandated.

On a national meeting. We agree that AARP and other consumer and public interest
organizations should be part of the meeting. The participation should be broadly based,
involving many participants not directly associated with State medical boards. It should be
convened under the PHS’ auspices in Washington, D.C.

On the Ombudsman Program. We suggest that the AARP take note of the AoA’s response to
our recommendation on the Ombudsman Program. We find it encouraging and expect that
AoA’s efforts can contribute to better opportunities to identify cases of improper medical care
in nursing homes.
    ‘   PtiBL!C   CITIZEN                                                 Jun   25,90      I::55   Nc.OC5     P.
I




                       PUBLIC CITIZEN
                   Memo to: 	 Richard Kusserow
                              Inspector General
                              U.S. Department of Health          and Human Services
                   From: 	 Sidney Wolfe, M.D.
                           Director, Health Research Group
                   Re: Comments on #State Medical Boards and Medical Discipline"
                          ~4=-O/-sq-~O5~@
                         Public Citizen's   Health Research Group applauds the Office
                   of Inspector General for its report "State Medical Boards and
                   Medical Discipline."    The report,  and Inspector   General Richard
                   Kusserow'a   accompanying Congressional testimony,     lay out the .
                   unvarniohed facts about our'nation'e     appallingly   lax mystem of
                   medical discipline.
                        We disagree,   however, with the report's       implication    that                 the
                   major benefit of good medical     quality    assurance is.to roduco
                   medical malpractice   insurance rator.
                                                                                     .
                        The
                          I true  aoal  of@       who  SW&     tOadat-      tha  v
                   ga                            svaam     mwt   be to reduce     mew
                   A                                     of    thoum.nW    of   deathsi­
                            malpractice   causFte each y,ar,
                            PublicCitizen submits the following    recommendations to
                   bolster   medical dlsciplino   in thi6 country. TheBe recommendations
                   are l xoerpted    from our Juno 1990 report,   @6892 Quamtionablo
                   Doctorl."
                                        RECCH'MENDATIONS 

I.     To the    federal     government.

        should    be    tied to the board@’              agrermrntm       to meet certain
        performance        standards, to be developed by the Public Health
        Service, a8 the Department of Health and Human Services
        Office of Inspector General ham rocantly rscomended.41
        The etandards should include: processing complaint8 within a
        certain time llmit;              maintaining        a certain       love1 of staffing
        and having staff            meet    certain      qualifications;          disseminating
        disciplinary         information          to the public;        and more,
     2.Require      cooperation.          Congress should promptly remove any
        legal barriers          to the sharing of investigative                     information
        between the Medicare Peer Review Organizations,                              the &ate
        Medicaid agenciee,             the Drug Enforcement Adminhtrat~on                       anb
        state    medical       boards.    *l It should mandate such information-
        sharing. Rep. Ron Wyden, D-gge., has promieed to introduce
        IegiBlation        on thiu matter.
     3,The Medicare Peer Review Organizations,                          which have been
        practically        moribund in disciplining                physicians For
        mbstandard care, should become more aggreesive. The PROS
        should hire inveetigatore                   and advisers      trained      in law
        enforosment, l o that fewer of their sanction8 will be
        overturned.
        AE a recent        Institute        of Medicha         report     noted, the PROmare
        not evaluated          on their ability           to detect       and oorrect poor
        quality     cam. 28 The Department of Mealth and Human Service@
        should change its evaluation                   procedures to place more
        emphasis; on quality.
     4.Open the databank.                The Bureau of Health Profeesions should
        keep the National Practitioner                    Data Bank, which will             collect
        and disseminate Qisciplinary                   information        on health      uara
        practitioners,          on track to bogin operations in September.
        Congress should paas legislation                     to open the data bank to the
        public.
     5.The Drug Enforcement               Administration          should release a monthly
        list of all practitionorm                   whome oontrollmd          rubrtanco
        proscription         licenses have boon revoked,                  restricted      or
        denied, whether by voluntary                   agroexmnt or publication               in the
        Federal Rogimtor. The list should be widely distributed                                  to
        pharmacies, rtate pharmacy and medical boarda, and the                                     I
        general public.
        Far too many doctors              continue to prescribe controlled
    substances      after their DEA licenrac have expired or been
    revoked.      The DEA should consider requiring         phannaciea to
    eubecribe to an on-lint            l crvice with which they could check
    the   validity     of these numbaro.
  6.Requits doctor       reorrtification.       Congresc should conaiher
    legislation      proposed by Rep. Pato &ark,          D-Calif.,  to require
    phyeicfans who accept Medicare patient8 to be periodically
    recertified      for competency.
12. To the statee:
   l.Strengthen     the etatutee.   Statee that have not already dorm so
        should adopt a modified version of the Model Medical Pra ice
       Act developed by the Federation of State Medical Board@.EZ
   2.Reetructure      the board.  States should sever any remaining
formal     links between state licensing     board6 and state medical
eocletiee.      Membero  of medical boards    (and separate dimcfplinary
boarda,      where present) should be appointed by the governor, and
the governor'o choice of appointees ohould be unconstrained,             not
limited to a medical society's         nomineoo.
    At least 30 percent of the members of each medical board and
    disciplinary   board  should be public menboro who have no ties
    to health care providers.
    The governor should appoint medical board raernbers to the
    Medical Board whose top priority      h not providing     assistance
    to physicians,    but protecting the public’s     health.
  3~Inform the public.       Each state's Open Records L,w and it6
    Medical Practice Act should rtate that all formal
    di6Ciplinary    action6      against licanlied professionals     are fully
    public records.
    Each LBgiSlatUre should require widespread d~csemination of
    final disciplinary        orderm,     Li6ts of thooe dieclplincd   and
    full disciplinary       orders     6hould bo promptly available    to all
    who as&, through the aail.
    Noticmo of dimiplinary            actions ohould be sent to the new@
    media and to all hospitals,            HMO&, and other health care
    pxovfders    in the otate,        as  well  a6 to other l tate agencies,
    the federal Department of Health and Runan services,              and the
    federal Drug Enforcement Administration.
  4,Strengthen     board authority.   Every aodical board should have
  the authority     to lmpoeo l morgmnay l umpenmionm pending   formal
  haaring where them in a potential         danger to the public health.
  Boards should aggrewively         um thir Authority  when they learn
  of a potentially      dangerous doctor.
    Every medical board should have the authority  to impose civil
    fines of up to $100,000 for violationo.  Board8 6hould
                                    xxviit
  aggressively   use this authority to enforce the requirements
  for all  health care providers to report violations.
  Medical boards should have the authority    to accept the
  findings of other state boar& and of the federal Department
  of Health and Human Services and the Drug Enforcement
  Administration,    If a physician has been disciplined  by
  another   atato, the second state's medical board should be
  required to impose sanctions at least as stringent     as those
  imposed by the first    state.
  States should require already-licensed       physicians to submit
  affidavits   that they are not under investigation       elsewhere
  before resuming practice    in the state.    Physicians who are
  under investigation   should not be permitted      to return.
  Each Legislature   should provide               the Board with authority              to
  examine physlcians   for physical,                mental and professional
  competence and to test them for                 alcohol and drug USC.
4,Encourage complaints.             Each Legislature            should provide the
   protection        of confidentiality           and immunity to those who
   report violations          of the Medical Practice              Act to the Board
   and to board members, staff and consultants.
   Each Lsgislature          should require all licensed health care
   practitioners         to report Medical Practioe               Act violations         by
   other     practitioners       to the medical          board,    with large civil
   penalties       for failure      to do 90. It should require hospitals
   to report all revocations,                restrictions,        or voluntary
   surrenders of privl,leges.
   It should roguire courts to report all indictments                          and
   convictions        of physicians to the medical disciplinary                      board,
   Xt should roquiro liability                 insurers to report all claims,
   paymente,      and policy       canoellationr.          It should require reports
   from other state agencies, Medicare,                      thr DEA and other
   Federal agencies.          It should require impaired               physicians
   program to report the names of doctors who fail                          to
   successfully        complete thm program.
   Modlcal boards          should conduct random audits               of institutions
   to cheok      compliance      with those reporting             roquiromants,        and
   should fine those who fail to oomply. After a doator is
   disciplined,        a board     should fine any other prectftionors                    who
   know of that doctor’s            offense,       but   failed to report it.
5.Keep the oourts $n crheok. Each Legislature                        should instruct
its state's        courts to give deferonco to disciplinary                    decisions
by the board. Stays           should be prohibited1              medical board actions
should always taka effect prnding appeal.
   Each Legislature  should adopt the 'Preponderance of the
   Evidence' standard of proof in medical disciplinary  casss,
                               xxix
!/ .I   ,



                     replacing the tougher-to-meat   'Clear and Convincing          Evidence0
                     standard now in affect   in most rtatas.
                   6.Baaf up funding and staffing.         Each Laglslatura      should permit
                     the medical       board to set its own farm and spand all the
                     resulting    revenue, rather than being forced         to give part to
                     the state Treasury. The medical boards should raise thair
                     fees to $500 a year.
                     All  boards could benefit from hiring new investigators              and
                     legal staff,       Boards should ensure adequate staff to process
                     and investigate        all complaints within 30 daybt, to review all
                     malpractice       claims filed with the board, to monitor and
                     regularly    visit     doctors who have been disciplined       to ansura
                     their compliance and to ensure compliance with reporting
                     requirements.
                     They should hire investigators         to Beck out errant doctors,
                     through review of pharmacy records, rpeaking with medical
                     examiners, and targeted office audits         of those      doctors
                     practicing     alone and suspected of poor uare. "Physicians who
                     have problems, R comments Department of Health and Human
                     Services Inspector General Richard Kusserow,             l have retreated
                     to areas where they cannot be observed.*
               7.Raquire       risk management. States should adopt a law, similar
            to one in Massachusetts, that requires all hospitals               and other
            health care providers to have a maaningful,            functioning    risk
            management program designed to prevent injury to patients.
            Massachusetts also requires all adverse incidents occurring in
            these    institutions     or in doctors' offices to ba raported to tha
            medical board.
               8.Require periodic       racartificatLon   of doctors    based on a
            written      exam and audit of their medical care records.
            III.      To patients...
                   1.Conplain.   Use the addresses in this report to fila your
                     OOmplaint8    about poor medical care or madioal misconduct with
                     your state medical board and with the federal Department of
                     Health and Human Servioam,    If the otfansa oocurrad in a
                     hospital,   also fila a COmplalnt with the hospital poor revhw
                      coxunittee.
                     Your oamplainte    are nerd&     to   proteat   othore1
                   Z.Organit@.    Form cStieena action or victim      right8 groups to
                      improve  medical quality   assuranoa Ln your arma. The American
                     Association    of Retired Perrona publirpom a quid.       that oan
                     help you mobilize     a group for reform.    Try to got a
                     representative    of your group appointed to the l tate medical
                     board  or the Medicare    Peer Review Organization     for your
                     state.
                                                      XXX
     .   ‘I
I/



                            OIG RESPONSE TO PUBLIC CITIZEN COMMENTS

              We appreciate Public Citizen’s positive assessment of the report. However, we do not intend
              to imply that the major benefit of good medical quality assurance is to reduce medical
              malpractice insurance rates. In this regard, we now state on page 1 that “to a considerable
              degree” the malpractice crises are “rooted in problems associated with poor medical care, and
              that over the long term one of the most effective ways to address these problems would be to
              assure that effective quality assurance mechanisms are in place.”
                          ANERICAN     MEDICAL        ASSOCIATION 





JAMES S TODD M D
  Actmg Executwe Vice PrestYenl



                                                            June 11, 1990


              Richard P. Kusserow 

              Office of inspector General 

              Room 5350 

              Cohen Building

              330 Independence Avenue, SW 

              Washington, D.C. 20201 

              Dear Inspector      General Kusserow:
                   We are pleased to comment on the April 1990 draft report of the
              Office of Inspector General, “State Medical Boards and Medical
              Discipline.”    We understand that this report is a draft and is subject to
              revision.    We commendyou for devoting the time and resources to develop
              this report on the important issue of medical discipline.
                    In examining the medical disciplinary    functions, we believe that it
              is important to keep in mind that quality assurance is a broad concept
              which encompasses many activities,      e.g., medical education, facility
              accreditation,     continuing education, technology assessment, medical
              licensure, peer review, risk management and medical discipline.          Medical
              discipline     should be viewed as one end of the spectrum of quality
              assurance activities.
                   The AMAhas an extensive history of working to assure quality of care
              and to reduce the excessive costs associated with the liability     crisis.
              We have long advocated that medical boards should be strengthened, and
              accordingly we strongly agree with the recommendation that “state
              governments should assure that all licensure fees collected from
              physicians and other professional   groups under the purview of medical
              boards are used to support board operations.”    This is long-standing AMA
              pol icy.
                   We also agree that the medical discipline   system has progressively
              improved over the past decade. This is due primarily     to several
              factors.    First, states have amended their statutes to expand board
              authority,   reporting requirements, and grounds for discipline.    Also, the
              Federation of State Medical Boards (FSMB) has become an increasingly
              active “player” in improving board operations through the development of
              “A Guide to the Essentials of a Modern Medical Practice Act,” “A
              Guidebook on Medical Discipline,”    “The Exchange,” and development of a
.   1




        sys tern of “markers” for identification    of “problem” physicians.     The FSMB 

        also distributes    a monthly report of adverse licensure actions reported

        by the state boards. We note that the draft report recommends that the 

        Public Health Service collect data regarding board staffing,         revenue, and 

        expenditures.      We believe such an effort would duplicate existing 

        activities    since FSMB is already in the process of collecting,      analyzing,

        and disseminating     this information. 

             We support the draft report’s recommendation that a national meeting
        be convened to focus attention on the importance of state medical board
        oversight of physicians and to examine how to further improve board
        resources and efficiency.    We believe that an important topic for
        discussion at such a conference would be federal financial     support to
        states for technical assistance efforts intended to improve board
        operations and investigative  efforts.   We strongly believe that the AMA,
        the FSMD, state agencies, and state legislators     all should play prominent
        roles in the discussions that would take place at any national conference
        on state medical boards.
             We are continuing our study of the OIG Report but at this time wish
        to state a number of concerns regarding certain recommendations contained
        in the draft report.     The report recommends an expanded role for PROSin
        the medical disciplinary    process. Specifically,      it calls for legislation
        mandating that PROSshare case information with medical boards when the
        first sanction notice is sent by the PRO to a physician.           Differentiation
        must be made between sanctions for matters of physician incompetence and
        those for Medicare infractions     not affecting health care. In any event,
        we oppose sharing of case information,      including that obtained from the
        Quality Improvement Program, with state medical boards prior to final
        resolution of the recommended sanction.        The AMAbelieves that before any
        physician is reported to a state licensing body for alleged quality
        deficiencies,   the physician should be provided a due process hearing to
        include representation    by an attorney, a record of the proceedings, an
        opportunity   to call! examine, and cross-examine witnesses, and an
        opportunity   to submit a written statement at the close of the hearing.
        Our process must also include an appropriate appeal process.             Statistics
        excerpted from a past OIG report indicate that approximately SOSC            of
        sanction recommendations are overturned on appeal. On balance, PRQshave
        been cautious regarding the types of information that they release.                We
        believe that extreme caution is warranted.        A report of substandard
        physician care, where that report is later found to be unjustified,               could
        become a permanent unfair mark against the physician’s         reputation.        The
        severity of this unjust mark against the physician’s        reputation is
        magnified in the current environment of computerized information-sharing,
        as exemplified by the establishment of the National Practitioner            Data
        Bank. The AMA is opposed to this potentially         onerous activity     proposed
        in the draft report.
                                               f

                                        -Y-





     The draft report also recommends that state boards contract with PROS
to conduct reviews of quality of care cases. We believe that this idea
warrants extreme caution.    In addition, while we would generally support
cooperative endeavors where appropriate,   we would do so only with the
proviso that the due process rights of the physician under review be
fully and completely protected throughout the process.
      We are also concerned that the draft report fails            to make a
distinction     between “medical malpractice,”        which relates injury due to
negligence (i.e.,       an error or omission) and “professional        incompetence,”
which is the inability        to practice medicine with reasonable skill and
safety.      The discussion on page 12 and page 16 seems to indicate that the
rate of physician discipline         should be equivalent to the incidence of
negligence.      Data shows, however, that the number of medical negligence
claims fail to be reliable        indicators of negligence.         The recent New
York State Harvard Study showed that 80?4of the claims for medical
negligence filed in New York did not correspond to a negligent adverse
event.      In addition, we must point out that the draft report’s
characterization       of the New York State Harvard Study (page 12) ignores
the fact that the Harvard study examined ~11 tweg of hospital
negligence, not iust those directlv          involvinp ohvsician care (e.g.,
falling    out of bed incidents),       thus making the rate correlation      argument
specious.
      We also note the report’s concern that “clear practice standards and
guidelines”    have not been integrated into the disciplinary   process. This
observation assumes that such guidelines,     or “parameters” as they are
known in much of the medical field, exist and are appropriate indicators
of physician competency. In fact, practice parameters address
utilization    issues as well as physician competency and patient safety
concerns and therefore will not always be relevant to the competency
evaluation process. We agree, however, that as appropriate
patient-safety     oriented parameters, such as those disseminated in the
anesthesia field, are developed, they may be indicators of appropriate
practice.
     We also are concerned that the draft report repeatedly suggests
changes in statutes that will allow “shortcuts”       and medical board action
without the board’s own full investigation.       We oppose such statutory
modifications.     Medical boards have a responsibility    - a duty - to fully
investigate    the facts of each case prior to taking disciplinary    action.
Licensure action is a grave matter that should never be undertaken using
shortcuts.     Where an urgent situation   is presented to a board, boards
have, in all jurisdictions,    the authority   to issue a restraining  order
during the pendency of its investigation.
     Lastly, we are concerned about the discussion contained           in the draft
report regarding the modification   of the standard of proof         in
disciplinary  actions from a “clear and convincing” standard           to a
“preponderance of evidence” standard.    Such a major change         in the
                                   -4-


required standard of proof could have far-reaching negative    effects on
the due process protections for individuals  who are subject   to government
oversight.
     Again, we are pleased to have had the opportunity to comment on the
draft report of the Office of Inspector General. We welcome the
opportunity  to work with all interested parties on an ongoing basis to
formulate improved mechanisms to address physician discipline   and to
continue to better the performance of the state medical boards.




JST/lp
  : Mark R. Yessian,   Ph.D.
&3x
                       OIG RESPONSE TO AMA COMMENTS

We completely agree with the AMA’s assertion that the due process rights of a physician under
review should be fully and completely protected during the review process. However, unlike
the AMA and for reasons we have already indicated, we believe that the PROS’ sharing of case
information with boards and the PROS’ contracting of boards to conduct reviews are quite
compatible with the protection of those rights. We must also note that the boards, in addition
to assuring that physicians’ rights are upheld, also are responsible for protecting the public
from unscrupulous and/or incompetent medical practice.

With respect to the AMA’s concern about “shortcuts, ” we believe that in States where a case
going through a full evidentiary hearing takes two years or more, some expediting of that
process is vital if the boards are to carry out their responsibilities to the public. We believe
that a quicker process can still afford ample protection of physicians’ due process rights.
                                       APPENDIX B 


                                METHODOLOGICAL           NOTES 


Literature   and Document Review 


We reviewed the 1986 through 1989-90 editions of the FSMB’s Exchange, which include 

up-to-date information on the State boards. The Exchange provided us with data on the 

boards’ structure, operations, review, and disciplinary functions. This included information 

regarding statutory reforms, budget allocations, board composition, disciplinary grounds and 

other basic board facts. 


In addition, we reviewed the annual reports of most State medical boards and numerous 

publications from entities that were in some way associated with or interested in State medical 

boards and their disciplinary processes. Some of these entities included the American 

Association of Retired Persons, the American Medical Association, the Public Citizen Health 

Research Group, the Office of Inspector General, the U.S. Public Health Service, and the 

American Medical Peer Review Association. 


FSMB Data 


We obtained validated disciplinary data for the years 1985 through 1987 from the FSMB’s 

publication entitled the Federation Bulletin. (See endnote 22.) These yearly compilations 

consist of State board actions reported to the FSMB during the year broken down by four 

major categories: revocations, suspensions, probations, and other actions. 


As FSMB validated data was not available for 1988, we examined the unvalidated data from 

the FSMB’s Disciplinary Action Reports for the months of January 1988-March 1990. Since 

all the 1988 actions were not reported in 1988 we felt it necessary to capture those 1988 

actions reported late in the 1989 reports. We reviewed these 1988 actions not to obtain a 

precise count of the number of disciplinary actions taken, but to gain a better understanding of 

the types of actions being undertaken in that year. 


We performed a trend analysis of the 1985- 1987 data. This included comparisons of 

revocations, suspensions, probations, and other actions, as well as total actions, from year to 

year and over the 3-year period. We also made comparisons on the basis of annual physician 

renewal fees, size of State medical doctor populations, and regions. Information concerning 

renewal fees and physician populations were taken from the FSMB and the AMA 

publications, regional groupings were obtained from U.S. census data. In analyzing the data, 

statistical measurements were made to judge the significance of the data. 





                                              B-l
Random Sample of States and Cases

We obtained a random sample of States stratified by the number of practicing doctors and the
number of actions taken by the medical boards in those States in 1988. To identify the actions
we used the 1988 disciplinary action report data as reported to the FSMB by individual States
(as discussed above).

The stratified sample consists of four sample categories: large States taking many actions,
large States taking few actions, small States taking many actions, and small States taking few
actions. Within each category, we randomly selected two States, resulting in a sample of eight
States.

Within each of the selected States, we examined all the disciplinary actions taken in 1988.
This resulted in 199 disciplinary actions in the eight States.

For each case we obtained, if available, the referral source (hospital, insurance company,
consumer, PRO, state medical society, etc.), initial complaint date, date action went into effect,
whether the action was stayed-pending      appeal-r    overturned on appeal, the basis for the
action, and the setting in which the event/events occurred (hospital inpatient or outpatient,
private office, nursing home, or other). These data were analyzed using cross-tabulation
statistical methodologies.

Initially, it was our intention to draw on the survey data to determine how long it took the
States to process cases, from time of initial complaint until time of case disposition. We also
intended to correlate this processing time variable with other variables, such as basis for
action, type of action, and referral source. Such an effort appears to be achievable, but did not
succeed in our study.

Our failure in this regard is attributable to inconsistencies and gaps in the initial complaint
data provided to us by the State boards. The inconsistencies were based on different
definitions of “initial’‘-that is, of when the board first received a complaint. In many
instances, boards have multiple complaints/referrals on a particular physician that have come
in at different times. The first such complaint/referral is not necessarily the one that trigger
the case review.

The gaps in initial complaint data reported to us were attributable to limitations in the data
readily available to the boards. In some cases, information could not be garnered from the
case records held by the boards. While we cannot be certain, it appears that with more
investigation such information could be attained.

Site Visits and Other Contacts

Visits were made to the four States having the largest numbers of medical doctors. These
included California, Texas, Pennsylvania, and New York, which together account for
approximately 37 percent of the practicing doctors in the country. Prior to the site visits we



                                               B-2 

conducted pre-inspection site visits to the Connecticut and Maryland boards. During the site
visits it was our aim to talk with the primary people involved in the process of disciplining
physicians at each of the boards. These visits included numerous discussions with executive
directors, chief prosecuting attorneys, chief investigators, and hearings officers. For one State
we were allowed to attend the investigative hearing committee meeting of the board.

For each of the interviews we followed discussion guides which focused on the issue areas of
the study. Numerous questions were asked concerning the identification of cases, the case
review process, case dispositions, and impediments in those areas. Telephone discussions
were held with representatives of the Peer Review Organizations in the four site States. The
questions asked of PROS centered on the relationship of the board and the PRO in regard to
the referral of cases between them.

Questions were also asked about the State or board’s efforts in assuring quality medical
practice. Additional contacts were made with other State boards and other associated entities
to discuss quality assurance efforts. Contacts were also made with Canadian Provinces to
discuss their efforts in this area. We will address the extent and results of these efforts in
detail in a subsequent report.




                                               B-3 

‘   .




                                              APPENDIX C 


                                                ENDNOTES 


        1.   See United States Department of Health and Human Services, Report of the Task Force
             on Medical Liability and Malpractice, August 1987; Office of Inspector General, Medi­
             cal Malpractice: A Monograph of Current Information, May 1989; United States
             General Accounting Office, Medical Malpractice: No Agreement on the Problems or
             Solutions, February 1986; and United States General Accounting Office, Medical
             Malpractice: A Framework for Action, May 1987.

        2.   See Medical Economics, April 18, 1988. The entire issue is devoted to an examination
             of medical malpractice.

        3.   See Office of Inspector General, Medical Licensure and Discipline:     An Overview, June
             1986.

        4.   See, for examples, Kusserow, Richard P., Handley, Elisabeth A., and Yessian, Mark R.,
             “An Overview of State Medical Discipline,” The Journal of the American Medical As­
             sociation, Vol. 257, No. 6, February 13, 1987, pp. 820-824; and “Tighter Reviews of
             Doctors Urged,” The New York Times, June 6, 1986.

        5.   In 1985, at the time we began our prior study of State medical boards, there were
             widespread concerns about recent scandals involving fraudulent medical credentials
             from two Caribbean medical schools and the administration of the Federation Licensing
             Exam (FLEX) used by the States. In the ensuing years, no such scandals have been
             reported and both State medical boards and hospitals have improved their credential
             verification processes.

        6.   Throughout the report, in referring to the State boards, we refer to the boards in the 50
             States and the District of Columbia. This includes data in the figures as well as in the
             text.

        7.   For further explanation of this development, see Braeden, Dale G., “Concentrating on
             the Problem Physician: Perspectives in Medical Discipline-Part    II,” Federation Bul­
             letin, Federation of State Medical Boards, Vol. 76, No. 3, March 1989, pp. 71-2.

        8.   Medical Licensure and Discipline, p. 15.

        9.   The workshop included representatives from Alabama, California, Colorado, Iowa, Min­
             nesota, Missouri, Ohio, Rhode Island, West Virginia, and Wisconsin. See American As­
             sociation of Retired Persons, Proceedings of a Workshop to Discuss Information
             Exchange between Peer Review Organizations and Medical Licensure Boards, April
             1990.




                                                     C-l
10.   See Jaco, Dan and Neikirk, H.J., “Exploring the Relationships between Peer Review Or­
      ganizations and State Medical Licensing Agencies: Results of a Survey of PROS,” Mis­
      souri Patient Care Review Foundation, Paper presented at the Tri-Regional PRO
      Conference, St. Petersburg, Florida, June 16, 1989.

11.   In the 4 case study States, the boards report that they have been receiving few referrals
      from the PROS. In our 8 sample survey States, only 1 of 199 disciplinary actions taken
      in 1988 is reported as originating from a PRO referral.

12.   The Intergovernmental Health Policy Project of the George Washington University
      provides a regular listing of changes made in State laws involving the oversight and
      regulation of physicians. In its September 1988 report it noted that “the overwhelming
      administrative backlog of cases to be investigated and reported” remained as one of the
      major problems plaguing State medical boards. See Intergovernmental Health Policy
      Project, Focus on---State Oversight and Regulation of Physicians, No. 22, September
       1988, p. 7. See also Weinstein, Michael, “Medical Boards Police Profession Amid
      Physician, Public Criticism, ” Observer, American College of Physicians, Vol. 9, No. 11,
      December 1989, pp. 1,6-7.

13.   From June 30, 1988 to June 30, 1989, the number of complaints awaiting assignment to
      an investigator declined from 911 to 671. From June 30, 1989 to December 15, 1989,
      the number rose to 731.

14.   In Pennsylvania, the board reported that in Fiscal Year 1988/89 the 45 1 physician cases
      that were closed took an average of 642 days to complete. In New York, at a December
       11, 1989 hearing on physician discipline before the Committee on Health and the Com­
      mittee on Higher Education of the Assembly of the State of New York, a State health
      department representative indicated that in 1988 “the average case from the service of
      the charges to the final service of the order” (p.91) took 21 months. That period of
      time, he noted later in his testimony, follows an average 6 to 7 month period during
      which an investigation would have been conducted (p. 93).

15.   It must be recognized that some boards depend upon investigative staff of an umbrella
      agency of which they are a part. In such instances individual investigators may have
      responsibilities involving a number of different kinds of boards.

16.   For the 1986 to 1989 period, each of these State boards had responsibilities for discipli­
      nary investigations, hearings, and decisions and in each year reported investigative staff­
      ing data in FSMB’s Exchange. They are: AL, AR, AZ, CA, CO, DC, GA, IA, ID, KS,
      KY, LA, MA, ME, MN, MO, MS, MT, ND, NH, NM, NV, OH, OK, OR, RI, SC, SD,
      VT, WV, and WY.

17.   American Medical Association, U.S. Medical Licensure Statistics and Licensure Re­
      quirements, 1986 and 1990 editions.




                                              c-2
18.   Zeitlin, David I., “An Update on How-And   What- BMQA is Doing,”            Los Angeles
      County Medical Association Physician, March 6, 1989, p. 37.

19.   Assembly hearing, December 11, 1989, p. 84.

20.   Federation of State Medical Boards, Exchange, 1989-1990.

21.   To our knowledge, there is not available at this point any inventory that specifies the
      number of State boards bound by the “clear and convincing” rule. However, FSMB of­
      ficials note that the majority are so bound. Our own discussions with board officials in
      many States suggest the same.

22.   The FSMB has a thorough process for checking the validity of each of the actions
      reported in its disciplinary action data bank and for eliminating any actions sub­
      sequently overturned on appeal. The validated counts for a calendar year are regularly
      published in the Federation Bulletin.

23.   Schwartz, William B. and Mendelson, David N., “The Role of Physician-Owned In­
      surance Companies in the Detection and Deterrence of Negligence,” The Journal of the
      American Medical Association, Vol. 262, No. 10, September 8, 1989, pp. 1342-1346.

24.   See “Hospital Study Finds Few Suits, Much Negligence,” The New York Times,
      January 30, 1990. See also, Hiatt, Howard H. et al, “Special Report: A Study of Medi­
      cal Injury and Medical Malpractice, ” New England Journal of Medicine, Vol. 321,
      August 17, 1989, pp. 480-4.

25.   Data are derived from FSMB data on State board actions as reported in Federation Bul­
      letin, 1985-1987 editions.

26.   When serious actions taken by boards in southern States were compared to those by
      boards in northern States, the difference was significant at the .03 level. When all ac­
      tions taken by boards in medium-sized States were compared to those in States of all
      other sizes, the difference was significant at the .003 level. It must be recognized that
      the disciplinary activity of particular States during the 1985-1987 period may be quite
      different than that in prior or subsequent periods.

27.   Relman, Arnold J., “Professional Regulation and The State Medical Boards,” New
      England Journal of Medicine, Vol. 312, No. 12, p. 785.

28.   From one State to another, the “Board initiated” and “other agency” categories may be
      defined somewhat differently and thus the proportionate share of referrals given to each
      may be somewhat misleading. For instance, for boards operating under an umbrella
      agency or as part of a major department of State government, cases initiated by the agen­
      cy or department may well be categorized as “board initiated.” For independent boards
      not part of a larger entity, “board initiated” cases are more narrowly defined as cases



                                              c-3
      that the board investigators actually opened as a result of their own information gather­
      ing efforts. It is also important to note that the increased use of self-reporting require­
      ments on license renewal forms provides boards with increased opportunities to initiate
      cases.

29. 	 For PRO cases that have resulted in sanctions being imposed by the Office of Inspector
      General (OIG), the medical boards in our four case study States have typically followed
      up with disciplinary actions of their own. For the 31 physicians whom OIG sanctioned
      in 1988 in these four States, we found that since then 26 have been disciplined by the
      State boards and that in 1 case action is pending. In two additional cases, the cases
      were opened but no action was taken. Finally, for the remaining 2 cases, the boards in­
      volved had no record of the OIG-sanctioned physicians actually being licensed in their
      States.

30. 	 As an illustration, in New York State, from January 1, 1989 through October 31, 1989,
      other State agencies accounted for 21 percent of all the cases referred by the investiga­
      tive committee to the hearing committee, but only 7.2 percent of all complaints during
      that time. During that same period, the comparative percentages for out-of-State agen­
      cies were 18 and 1, for hospitals-17 and 4, and for consumers-15 and 42.


31. 	 For Fiscal Year 1987-88, the Administration on Aging (AOA) reports in its National
      Summary of Ombudsman Data that there were 1,450 complaints about physicians’ ser­
      vices rendered to patients in long term care facilities and 2,074 complaints about
      medications provided to patients. These data were compiled in 44 States. Comparable
      data for Fiscal Year 1986-87 were 1,122 complaints about physicians’ services and
      1,786 about medications. These data were based on reports from 43 States.

32. 	 This report, referred to as the “Little Hoover Commission” report, noted “the absence of
      sanctions for any physicians working in long-term care facilities who may have been lar­
      gely responsible for the decrement in health status of a nursing home resident.” It
      added: “Physicians who share in the care of such person with the nursing home itself
      should also be subject to an array of intermediate sanctions which are designed, in part,
      to show the seriousness with which the State regards poor quality medical care provided
      to nursing home residents.” (pp. 40-l). See Commission on California State Govem­
      ment Organization and Economy, The Medical Care of California’s Nursing Home Resi­
      dents: Inadequate Care, Inadequate Oversight, February 1989.

33. 	 Following is a listing of the different types of sanction authorities held by the boards
      and, in each case, the number of boards having the authority to impose that sanction.
      (As in the report as a whole, the universe being addressed is the 50 States and the Dis­
      trict of Columbia): Revocations-5 1; summary suspensions-45; suspensions-5 1; proba-
      tion-49; license limitation-5 1; collection of fine-28; private reprimand-30; letter/decree
      of censure-36; letter of concern-32; and collection of cost of proceedings-17. FSMB,
      Exchange, 1989-90.



                                               c-4
34.   According to FSMB’s Exchange, the number of nonphysician members on the boards
      increased from 90 in 1986 to 112 in 1989. The proportion of board membership ac­
      counted for by nonphysician members, however, remains relatively low. In 1989, such
      members accounted for 20 percent or less of total board membership for 66 percent of
      the boards; this compares with 73 percent in 1986.

35.   The White House, Memorandum for the Heads of Executive Departments and Agencies.
      Subject: Federalism Executive Order, February 16, 1990.

36.   Medical Licensure and Discipline, p. 20.

37.   Report of the Task Force on Medical Liability ana’ Malpractice,    p. 23.

38.   The American Association of Retired Persons, through its Citizen Advocacy Center
      (CAC), has been devoting increased attention to evaluating the performance of medical
      and other State boards. The CAC serves as a “communication link and backup support
      for public members of health care decision making bodies, including professional licens­
      ing boards and Peer Review Organizations.” See Citizen Advocacy News, Vol. 1, No. 4,
      Fourth Quarter 1989. See also, American Association of Retired Persons, EfSective
      Physician Oversight: Prescription for Medical Licensing Board Reform, 1987.

39.   See Testimony of James 0. Mason, Assistant Secretary for Health, Department of
      Health and Human Services, before the Subcommittee on Health and the Environment,
      House Committee on Energy and Commerce, June 16,1989.

40.   See Report of the Task Force on Medical Liability ana’ Malpractice, pp. 96-7.

41.   See Medical Licensure and Discipline, p. 18.

42.   The scope of work changes call for the PROS to specify in an “Interaction Plan” their
      relationships with the boards as well as with local and State hospital associations, medi­
      cal societies, and specialty bodies. Further, they also call for the PROS to “consider”
      sharing information with a board when a physician in any one quarter has reached a
      weighted score of 25 in the PROS’ system for ranking the severity of quality of care
      problems.

43.   The proposed change appears in the Federal Register, Vol. 53, No. 51, March 16, 1988.
      It is as follows: “A PRO may without a request, and must, upon request, disclose to
      State and Federal licensing bodies responsible for the professional licensure of prac­
      titioners or providers and to national accreditation bodies acting in accordance with sec­
      tion 1885 of the Act, confidential information relating to a specific case (or) a possible
      pattern of substandard care. Confidential information, including PRO medical necessity
      and quality of care deterrninations must be disclosed by the PRO but only to the extent
      that it is required by an agency to carry out a function within the jurisdiction of the agen­
      cv in accordance with Federal or State law.”



                                               c-5
44. 	 This point was strongly endorsed by the PROS participating in the AARP conference
      noted in endnote 9.

45. 	 In this regard, the Office of Inspector General, once it imposes a sanction on the basis of
      a PRO referral, should also make detailed case information available to the medical
      board. The necessary regulatory or statutory changes to allow for such sharing should
      be addressed at the same time that such changes are being addressed with respect to
      PRO sharing of data.

46.     See Title 42 Code of Federal Regulations, section 43 1.302.

47. 	 The Pennsylvania Department of Public Welfare has been involved with a recent case of
      this kind. Because of HHS interpretations concerning the “purposes directly connected
      with the administration of the plan, ” it has not been able to share with the State medical
      board its investigative files on a provider who it has terminated from the Medicaid pro­
      gr=n*

48. 	   See Medicare Part B Carrier Manual, Section 10040. See also United States General Ac­
        counting Office, Medicare and Medicaid: More Information Exchange Could Improve
        Detection of Substandard Care, March 1990. This study found that there was minimal
        exchange of case information among Medicare carriers, State Medicaid agencies, and
        PROS.

49. 	   See Office of Inspector General, Resident Abuse in Nursing Homes: Resolving Physical
        Abuse Complaints, November 1989.




                                               C-6 

                                       APPENDIX B 


                                METHODOLOGICAL           NOTES 


Literature   and Document Review 


We reviewed the 1986 through 1989-90 editions of the FSMB’s Exchange, which include 

up-to-date information on the State boards. The Exchange provided us with data on the 

boards’ structure, operations, review, and disciplinary functions. This included information 

regarding statutory reforms, budget allocations, board composition, disciplinary grounds and 

other basic board facts. 


In addition, we reviewed the annual reports of most State medical boards and numerous 

publications from entities that were in some way associated with or interested in State medical 

boards and their disciplinary processes. Some of these entities included the American 

Association of Retired Persons, the American Medical Association, the Public Citizen Health 

Research Group, the Office of Inspector General, the U.S. Public Health Service, and the 

American Medical Peer Review Association. 


FSMB Data 


We obtained validated disciplinary data for the years 1985 through 1987 from the FSMB’s 

publication entitled the Federation Bulletin. (See endnote 22.) These yearly compilations 

consist of State board actions reported to the FSMB during the year broken down by four 

major categories: revocations, suspensions, probations, and other actions. 


As FSMB validated data was not available for 1988, we examined the unvalidated data from 

the FSMB’s Disciplinary Action Reports for the months of January 1988-March 1990. Since 

all the 1988 actions were not reported in 1988 we felt it necessary to capture those 1988 

actions reported late in the 1989 reports. We reviewed these 1988 actions not to obtain a 

precise count of the number of disciplinary actions taken, but to gain a better understanding of 

the types of actions being undertaken in that year. 


We performed a trend analysis of the 1985-1987 data. This included comparisons of 

revocations, suspensions, probations, and other actions, as well as total actions, from year to 

year and over the 3-year period. We also made comparisons on the basis of annual physician 

renewal fees, size of State medical doctor populations, and regions. Information concerning 

renewal fees and physician populations were taken from the FSMB and the AMA 

publications, regional groupings were obtained from U.S. census data. In analyzing the data, 

statistical measurements were made to judge the significance of the data. 





                                              B-l
Random Sample of States and Cases

We obtained a random sample of States stratified by the number of practicing doctors and the
number of actions taken by the medical boards in those States in 1988. To identify the actions
we used the 1988 disciplinary action report data as reported to the FSMB by individual States
(as discussed above).

The stratified sample consists of four sample categories: large States taking many actions,
large States taking few actions, small States taking many actions, and small States taking few
actions. Within each category, we randomly selected two States, resulting in a sample of eight
States.

Within each of the selected States, we examined all the disciplinary actions taken in 1988.
This resulted in 199 disciplinary actions in the eight States.

For each case we obtained, if available, the referral source (hospital, insurance company,
consumer, PRO, state medical society, etc.), initial complaint date, date action went into effect,
whether the action was stayed-pending      appeal--or overturned on appeal, the basis for the
action, and the setting in which the event/events occurred (hospital inpatient or outpatient,
private office, nursing home, or other). These data were analyzed using cross-tabulation
statistical methodologies.

Initially, it was our intention to draw on the survey data to determine how long it took the
States to process cases, from time of initial complaint until time of case disposition. We also
intended to correlate this processing time variable with other variables, such as basis for
action, type of action, and referral source. Such an effort appears to be achievable, but did not
succeed in our study.

Our failure in this regard is attributable to inconsistencies and gaps in the initial complaint
data provided to us by the State boards. The inconsistencies were based on different
definitions of “initial’‘-that is, of when the board first received a complaint. In many
instances, boards have multiple complaints/referrals on a particular physician that have come
in at different times. The first such complaint/referral is not necessarily the one that trigger
the case review.

The gaps in initial complaint data reported to us were attributable to limitations in the data
readily available to the boards. In some cases, information could not be garnered from the
case records held by the boards. While we cannot be certain, it appears that with more
investigation such information could be attained.

Site Visits and Other Contacts

Visits were made to the four States having the largest numbers of medical doctors. These
included California, Texas, Pennsylvania, and New York, which together account for
approximately 37 percent of the practicing doctors in the country. Prior to the site visits we



                                               B-2 

conducted pre-inspection site visits to the Connecticut and Maryland boards. During the site
visits it was our aim to talk with the primary people involved in the process of disciplining
physicians at each of the boards. These visits included numerous discussions with executive
directors, chief prosecuting attorneys, chief investigators, and hearings officers. For one State
we were allowed to attend the investigative hearing committee meeting of the board.

For each of the interviews we followed discussion guides which focused on the issue areas of
the study. Numerous questions were asked concerning the identification of cases, the case
review process, case dispositions, and impediments in those areas. Telephone discussions
were held with representatives of the Peer Review Organizations in the four site States. The
questions asked of PROS centered on the relationship of the board and the PRO in regard to
the referral of cases between them.

Questions were also asked about the State or board’s efforts in assuring quality medical
practice. Additional contacts were made with other State boards and other associated entities
to discuss quality assurance efforts. Contacts were also made with Canadian Provinces to
discuss their efforts in this area. We will address the extent and results of these efforts in
detail in a subsequent report.




                                              B-3 

                                       APPENDIX C 


                                        ENDNOTES 


1.   See United States Department of Health and Human Services, Report of the Task Force
     on Medical Liability and Malpractice, August 1987; Office of Inspector General, Medi­
     cal Malpractice.* A Monograph of Current Information, May 1989; United States
     General Accounting Office, Medical Malpractice: No Agreement on the Problems or
     Solutions, February 1986; and United States General Accounting Office, Medical
     Malpractice: A Framework for Action, May 1987.

2.   See Medical Economics, April 18, 1988. The entire issue is devoted to an examination
     of medical malpractice.

3.   See Office of Inspector General, Medical Licensure and Discipline:     An Overview, June
     1986.

4.   See, for examples, Kusserow, Richard P., Handley, Elisabeth A., and Yessian, Mark R.,
     “An Overview of State Medical Discipline,” The Journal of the American Medical As­
     sociation, Vol. 257, No. 6, February 13, 1987, pp. 820-824; and “Tighter Reviews of
     Doctors Urged,” The New York Times, June 6, 1986.

5.   In 1985, at the time we began our prior study of State medical boards, there were
     widespread concerns about recent scandals involving fraudulent medical credentials
     from two Caribbean medical schools and the administration of the Federation Licensing
     Exam (FLEX) used by the States. In the ensuing years, no such scandals have been
     reported and both State medical boards and hospitals have improved their credential
     verification processes.

6.   Throughout the report, in referring to the State boards, we refer to the boards in the 50
     States and the District of Columbia. This includes data in the figures as well as in the
     text.

7.   For further explanation of this development, see Braeden, Dale G., “Concentrating on
     the Problem Physician: Perspectives in Medical Discipline-Part    II,” Federation Bul­
     letin, Federation of State Medical Boards, Vol. 76, No. 3, March 1989, pp. 71-2.

8.   Medical Licensure and Discipline, p. 15.

9.   The workshop included representatives from Alabama, California, Colorado, Iowa, Min­
     nesota, Missouri, Ohio, Rhode Island, West Virginia, and Wisconsin. See American As­
     sociation of Retired Persons, Proceedings of a Workshop to Discuss Information
     Exchange between Peer Review Organizations and Medical Licensure Boards, April
     1990.



                                             C-l
10. 	 See Jaco, Dan and Neikirk, H.J., “Exploring the Relationships between Peer Review Or­
      ganizations and State Medical Licensing Agencies: Results of a Survey of PROS,” Mis­
      souri Patient Care Review Foundation, Paper presented at the Tri-Regional PRO
      Conference, St. Petersburg, Florida, June 16, 1989.

11. 	 In the 4 case study States, the boards report that they have been receiving few referrals
      from the PROS. In our 8 sample survey States, only 1 of 199 disciplinary actions taken
      in 1988 is reported as originating from a PRO referral.

12. 	 The Intergovernmental Health Policy Project of the George Washington University
      provides a regular listing of changes made in State laws involving the oversight and
      regulation of physicians. In its September 1988 report it noted that “the overwhelming
      administrative backlog of cases to be investigated and reported” remained as one of the
      major problems plaguing State medical boards. See Intergovernmental Health Policy
      Project, Focus on-State Oversight and Regulation of Physicians, No. 22, September
       1988, p. 7. See also Weinstein, Michael, “Medical Boards Police Profession Amid
      Physician, Public Criticism,” Observer, American College of Physicians, Vol. 9, No. 11,
      December 1989, pp. 1,6-7.

13. 	 From June 30, 1988 to June 30, .1989, the number of complaints awaiting assignment to
      an investigator declined from 911 to 671. From June 30, 1989 to December 15, 1989,
      the number rose to 73 1.

14. 	 In Pennsylvania, the board reported that in Fiscal Year 1988/89 the 45 1 physician cases
      that were closed took an average of 642 days to complete. In New York, at a December
      11, 1989 hearing on physician discipline before the Committee on Health and the Com­
      mittee on Higher Education of the Assembly of the State of New York, a State health
      department representative indicated that in 1988 “the average case from the service of
      the charges to the final service of the order” (p.91) took 21 months. That period of
      time, he noted later in his testimony, follows an average 6 to 7 month period during
      which an investigation would have been conducted (p. 93).

15. 	 It must be recognized that some boards depend upon investigative staff of an umbrella
      agency of which they are a part. In such instances individual investigators may have
      responsibilities involving a number of different kinds of boards.

16. 	 For the 1986 to 1989 period, each of these State boards had responsibilities for discipli­
      nary investigations, hearings, and decisions and in each year reported investigative staff­
      ing data in FSMB’s Exchange. They are: AL, AR, AZ, CA, CO, DC, GA, IA, ID, KS,
      KY, LA, MA, ME, MN, MO, MS, MT, ND, NH, NM, NV, OH, OK, OR, RI, SC, SD,
      VT, WV, and WY.

17. 	 American Medical Association, U.S. Medical Licensure Statistics and Licensure Re­
      quirements, 1986 and 1990 editions.




                                              c-2
18.   Zeitlin, David I., “An Update on How-And   What- BMQA is Doing,”            Los Angeles
      County Medical Association Physician, March 6, 1989, p. 37.

19.   Assembly hearing, December 11, 1989, p. 84.

20.   Federation of State Medical Boards, Exchange, 1989-1990.

21.   To our knowledge, there is not available at this point any inventory that specifies the
      number of State boards bound by the “clear and convincing” rule. However, FSMB of­
      ficials note that the majority are so bound. Our own discussions with board officials in
      many States suggest the same.

22.   The FSMB has a thorough process for checking the validity of each of the actions
      reported in its disciplinary action data bank and for eliminating any actions sub­
      sequently overturned on appeal. The validated counts for a calendar year are regularly
      published in the Federation Bulletin.

23.   Schwartz, William B. and Mendelson, David N., “The Role of Physician-Owned In­
      surance Companies in the Detection and Deterrence of Negligence,” The Journal of the
      American Medical Association, Vol. 262, No. 10, September 8, 1989, pp. 1342-1346.

24.   See “Hospital Study Finds Few Suits, Much Negligence,” The New York Times,
      January 30, 1990. See also, Hiatt, Howard H. et al, “Special Report: A Study of Medi­
      cal Injury and Medical Malpractice,” New England Journal of Medicine, Vol. 321,
      August 17, 1989, pp. 480-4.

25.   Data are derived from FSMB data on State board actions as reported in Federation Bul­
      letin, 1985- 1987 editions.

26.   When serious actions taken by boards in southern States were compared to those by
      boards in northern States, the difference was significant at the .03 level. When all ac­
      tions taken by boards in medium-sized States were compared to those in States of all
      other sizes, the difference was significant at the .003 level. It must be recognized that
      the disciplinary activity of particular States during the 19851987 period may be quite
      different than that in prior or subsequent periods.

27.   Relman, Arnold J., “Professional Regulation and The State Medical Boards,” New
      England Journal of Medicine, Vol. 312, No. 12, p. 785.

28.   From one State to another, the “Board initiated” and “other agency” categories may be
      defined somewhat differently and thus the proportionate share of referrals given to each
      may be somewhat misleading. For instance, for boards operating under an umbrella
      agency or as part of a major department of State government, cases initiated by the agen­
      cy or department may well be categorized as “board initiated.” For independent boards
      not part of a larger entity, “board initiated” cases are more narrowly defined as cases



                                              c-3
      that the board investigators actually opened as a result of their own information gather­
      ing efforts. It is also important to note that the increased use of self-reporting require­
      ments on license renewal forms provides boards with increased opportunities to initiate
      cases.

29. 	 For PRO cases that have resulted in sanctions being imposed by the Office of Inspector
      General (OIG), the medical boards in our four case study States have typically followed
      up with disciplinary actions of their own. For the 31 physicians whom OIG sanctioned
      in 1988 in these four States, we found that since then 26 have been disciplined by the
      State boards and that in 1 case action is pending. In two additional cases, the cases
      were opened but no action was taken. Finally, for the remaining 2 cases, the boards in­
      volved had no record of the OIG-sanctioned physicians actually being licensed in their
      States.

30. 	 As an illustration, in New York State, from January 1, 1989 through October 31, 1989,
      other State agencies accounted for 21 percent of all the cases referred by the investiga­
      tive committee to the hearing committee, but only 7.2 percent of all complaints during
      that time. During that same period, the comparative percentages for out-of-State agen­
      cies were 18 and 1, for hospitals-17 and 4, and for consumers-15 and 42.


31. 	 For Fiscal Year 1987-88, the Administration on Aging (AOA) reports in its National
      Summary of Ombudsman Data that there were 1,450 complaints about physicians’ ser­
      vices rendered to patients in long term care facilities and 2,074 complaints about
      medications provided to patients. These data were compiled in 44 States. Comparable
      data for Fiscal Year 1986-87 were 1,122 complaints about physicians’ services and
      1,786 about medications. These data were based on reports from 43 States.

32. 	 This report, referred to as the “Little Hoover Commission” report, noted “the absence of
      sanctions for any physicians working in long-term care facilities who may have been lar­
      gely responsible for the decrement in health status of a nursing home resident.” It
      added: “Physicians who share in the care of such person with the nursing home itself
      should also be subject to an array of intermediate sanctions which are designed, in part,
      to show the seriousness with which the State regards poor quality medical care provided
      to nursing home residents.” (pp. 40-l). See Commission on California State Govem­
      ment Organization and Economy, The Medical Care of California’s Nursing Home Resi­
      dents: Inadequate Care, Inadequate Oversight, February 1989.

33. 	 Following is a listing of the different types of sanction authorities held by the boards
      and, in each case, the number of boards having the authority to impose that sanction.
      (As in the report as a whole, the universe being addressed is the 50 States and the Dis­
      trict of Columbia): Revocations-5 1; summary suspensions-45; suspensions-5 1; proba-
      tion-49; license limitation-5 1; collection of fine-28; private reprimand-30; letter/decree
      of censure-36; letter of concern-32; and collection of cost of proceedings-17. FSMB,
      Exchange, 1989-90.



                                               c-4
34.   According to FSMB’s Exchange, the number of nonphysician members on the boards
      increased from 90 in 1986 to 112 in 1989. The proportion of board membership ac­
      counted for by nonphysician members, however, remains relatively low. In 1989, such
      members accounted for 20 percent or less of total board membership for 66 percent of
      the boards; this compares with 73 percent in 1986.

35.   The White House, Memorandum for the Heads of Executive Departments and Agencies.
      Subject: Federalism Executive Order, February 16,199O.

36.   Medical Licensure and Discipline, p. 20.

37.   Report of the Task Force on Medical Liability and Malpractice,     p. 23.

38.   The American Association of Retired Persons, through its Citizen Advocacy Center
      (CAC), has been devoting increased attention to evaluating the performance of medical
      and other State boards. The CAC serves as a “communication link and backup support
      for public members of health care decision making bodies, including professional licens­
      ing boards and Peer Review Organizations.” See Citizen Advocacy News, Vol. 1, No. 4,
      Fourth Quarter 1989. See also, American Association of Retired Persons, EfSective
      Physician Oversight: Prescription for Medical Licensing Board Reform, 1987.

39.   See Testimony of James 0. Mason, Assistant Secretary for Health, Department of
      Health and Human Services, before the Subcommittee on Health and the Environment,
      House Committee on Energy and Commerce, June 16, 1989.

40.   See Report of the Task Force on Medical Liability and Malpractice, pp. 96-7.

41.   See Medical Licensure and Discipline, p. 18.

42.   The scope of work changes call for the PROS to specify in an “Interaction Plan” their
      relationships with the boards as well as with local and State hospital associations, medi­
      cal societies, and specialty bodies. Further, they also call for the PROS to “consider”
      sharing information with a board when a physician in any one quarter has reached a
      weighted score of 25 in the PROS’ system for ranking the severity of quality of care
      problems.

43.   The proposed change appears in the Federal Register, Vol. 53, No. 51, March 16, 1988.
      It is as follows: “A PRO may without a request, and must, upon request, disclose to
      State and Federal licensing bodies responsible for the professional licensure of prac­
      titioners or providers and to national accreditation bodies acting in accordance with sec­
      tion 1885 of the Act, confidential information relating to a specific case (or) a possible
      pattern of substandard care. Confidential information, including PRO medical necessity
      and quality of care determinations must be disclosed by the PRO but only to the extent
      that it is required by an agency to carry out a function within the jurisdiction of the agen­
      cy in accordance with Federal or State law.”



                                              c-5
44. 	   This point was strongly endorsed by the PROS participating in the AARP conference
        noted in endnote 9.

45. 	   In this regard, the Office of Inspector General, once it imposes a sanction on the basis of
        a PRO referral, should also make detailed case information available to the medical
        board. The necessary regulatory or statutory changes to allow for such sharing should
        be addressed at the same time that such changes are being addressed with respect to
        PRO sharing of data.

46.     See Title 42 Code of Federal Regulations, section 431.302.

47. 	 The Pennsylvania Department of Public Welfare has been involved with a recent case of
      this kind. Because of HHS interpretations concerning the “purposes directly connected
      with the administration of the plan,” it has not been able to share with the State medical
      board its investigative files on a provider who it has terminated from the Medicaid pro-
      gram.

48. 	   See Medicare Part B Carrier Manual, Section 10040. See also United States General Ac­
        counting Office, Medicare and Medicaid: More Information Exchange Could Improve
        Detection of Substandard Care, March 1990. This study found that there was minimal
        exchange of case information among Medicare carriers, State Medicaid agencies, and
        PROS.

49. 	   See Office of Inspector General, Resident Abuse in Nursing Homes: Resolving Physical
        Abuse Complaints, November 1989.




                                                C-6 

,   ,
